<html>
<title> - OVERSIGHT HEARING ON ISSUES REGARDING EVERGLADES NATIONAL PARK AND SURROUNDING AREAS IMPACTED BY MANAGEMENT OF THE EVERGLADES</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





    ISSUES REGARDING EVERGLADES NATIONAL PARK AND SURROUNDING AREAS 
                IMPACTED BY MANAGEMENT OF THE EVERGLADES

=======================================================================

                           OVERSIGHT HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                     APRIL 27, 1999, WASHINGTON, DC

                               __________

                           Serial No. 106-24

                               __________

           Printed for the use of the Committee on Resources


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
           Committee address: http://www.house.gov/resources



                    U.S. GOVERNMENT PRINTING OFFICE
57-272 <l-ar/r-ar>          WASHINGTON : 1999


                                 ______




                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH, Idaho               CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   WILLIAM D. DELAHUNT, Massachusetts
JOHN PETERSON, Pennsylvania          CHRIS JOHN, Louisiana
RICK HILL, Montana                   DONNA CHRISTIAN-CHRISTENSEN, 
BOB SCHAFFER, Colorado                   Virgin Islands
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MARK E. SOUDER, Indiana              JAY INSLEE, Washington
GREG WALDEN, Oregon                  GRACE F. NAPOLITANO, California
DON SHERWOOD, Pennsylvania           TOM UDALL, New Mexico
ROBIN HAYES, North Carolina          MARK UDALL, Colorado
MIKE SIMPSON, Idaho                  JOSEPH CROWLEY, New York
THOMAS G. TANCREDO, Colorado

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          CARLOS A. ROMERO-BARCELO, Puerto 
JOHN J. DUNCAN, Jr., Tennessee           Rico
JOEL HEFLEY, Colorado                NICK J. RAHALL II, West Virginia
RICHARD W. POMBO, California         BRUCE F. VENTO, Minnesota
GEORGE P. RADANOVICH, California     DALE E. KILDEE, Michigan
WALTER B. JONES, Jr., North          DONNA CHRISTIAN-CHRISTENSEN, 
    Carolina                             Virgin Islands
CHRIS CANNON, Utah                   RON KIND, Wisconsin
RICK HILL, Montana                   JAY INSLEE, Washington
JIM GIBBONS, Nevada                  TOM UDALL, New Mexico
MARK E. SOUDER, Indiana              MARK UDALL, Colorado
DON SHERWOOD, Pennsylvania           JOSEPH CROWLEY, New York
                        Allen Freemyer, Counsel
                     Todd Hull, Professional Staff
                    Liz Birnbaum, Democratic Counsel
                   Gary Griffith, Professional Staff




                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held Month, Day, 1999....................................     1

Statements of Members:
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     1
        Prepared statement of....................................     4
    Romero-Barcelo, Hon. Carlos, a Delegate in Congress from the 
      Territory of Puerto Rico...................................     6
        Prepared statement of....................................     7
        Letter to Hon. Alex Penelas, Mayor of Miami-Dade County, 
          from Hon. Bob Graham, and Hon. Connie Mack.............    26

Statements of witnesses:
    Aguilera, Ibel, The United Property Owners & Friends of the 
      8.5 Square Mile Area, Inc..................................    99
        Prepared statement of....................................   103
    Jones, Ronald D., Ph.D, Southeast Environmental Research 
      Program, Florida International University..................    48
        Prepared statement of....................................    50
    Leary, William, Senior Counselor to Assistant Secretary for 
      Fish, Wildlife and Parks, National Park Service; 
      accompanied by Richard Ring, Superintendent of the 
      Everglades National Park...................................     7
        Prepared statement of....................................    10
    Lehtinen, Dexter, Esq., Lehtinen, O'Donnell, Vargas & Reiner, 
      P.S., representing Miccosukee Tribe of Indians of Florida..    75
    Lorion, Joette, Environmental Consultant.....................    79
        Prepared statement of....................................    83
    MacVicar, Thomas K., P.E., President, Federico & Lamb, Inc...    52
        Prepared statement of....................................    55
    Rice, Colonel Terry L., U.S. Army Retired, Florida 
      International University, and Advisor, Miccosukee Tribe of 
      Indians of FloridA.........................................    35
        Prepared statement of....................................    39
    Shiver, Hon. Steve, Mayor, City of Homestead, Florida........    95
        Prepared statement of....................................    97

Additional material supplied:
    Barley, Mary L., The Everglades Foundation, Inc., prepared 
      statement of...............................................   136
    Diaz-Balart, Hon. Lincoln, letter to Mr. Hansen..............    22
    Dieguez, Elena, prepared statement of........................   129
    Forten, Madeleine, prepared statement of.....................   135
    Prieto, Armando J., prepared statement of....................   133
    Rinaldi, Charles R., Deputy Director, South Florida Water 
      Management District, Florida, letter to landonwers.........   118
        Walfer, Ray, Senior Real Estate Specialist...............   122
    Rosario, Emilio, prepared statement of.......................   127
    Sweeting, Debbie, prepared statement of......................   124
    Sweeting, Robert, prepared statement of......................   125
    Truth Patrol: Rebutting the Myth and Misinformation Campaign 
      in the 8.5 Square Mile Area................................   138

 
  OVERSIGHT HEARING ON ISSUES REGARDING EVERGLADES NATIONAL PARK AND 
       SURROUNDING AREAS IMPACTED BY MANAGEMENT OF THE EVERGLADES

                              ----------                              


                        TUESDAY, APRIL 27, 1999

              House of Representatives,    
                       Subcommittee on National    
                                Parks and Public Lands,    
                                    Committee on Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10 a.m. in Room 
1324, Longworth House Office Building, Hon. James V. Hansen 
[chairman of the Subcommittee] presiding.
    Mr. Hansen. The Committee will come to order.
    Good morning and welcome to the oversight hearing today. We 
have many people here today, so I would like to make an opening 
statement and proceed with the business at hand.

STATEMENT OF HON. JAMES V. HANSEN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    The Everglades, in the State of Florida, represents the 
largest wetland ecosystem in the United States, about 18,000 
square miles of land, rivers, and lakes. This complex ecosystem 
has been considerably impacted by the development and water 
management in central and south Florida. Over many years, 
various protective measures for the Everglades have been 
enacted by Congress, but problems still abound.
    The Clinton Administration has more recently announced the 
South Florida Ecosystem Restoration Initiative which led to the 
creation of the South Florida Ecosystem Restoration Task Force 
by the Water Resources Development Act of 1996. This Task Force 
is comprised of a large number of Federal, State, tribal, and 
local agencies and stakeholders and has established three main 
goals: one, get the water right, that is, restoring the natural 
hydrological function of the Everglades; two, restore the 
natural systems by land acquisition and changing land use; and, 
three, transform the developed environment.
    Finding solutions to restore the Everglades has not been 
cheap. Since 1993, approximately $1.2 billion has been provided 
from Federal funding to implement the activities of the 
Restoration Initiative. It is projected that at least $11 
billion will be spent on these activities over the next 20 
years. Where and how this enormous amount of money has and will 
be spent is, obviously, of great concern to this Committee.
    The issues surrounding the huge area of land and water of 
the Everglades are as complex as the ecosystem. Many of these 
issues are linked to the Restoration Initiative and will be 
examined within the scope of this oversight hearing. Areas in 
particular that are the subject of this oversight hearing 
include the land acquisition requirements in the 1989 
Everglades National Park Protection and Expansion Act and 
subsequent amendment in 1994 and how these requirements 
impacted the Modified Water Delivery Project, the Miccosukee 
Indian Tribe, and an area of land known as 8-1/2 Square Mile 
Area.
    In 1989, Congress passed the Everglades National Park 
Protection and Expansion Act, which authorized the addition of 
107,600 acres of land in the eastern part of the Park. This Act 
also authorized the Modified Water Deliveries Project, Mod-
Water Project, which, when finished, supposedly will restore 
the natural water flow into the Shark River Slough by moving 
water under the Tamiama Trail and into the Everglades National 
Park.
    It was the express intent of the Congress that all the land 
acquisition be completed by 1994 and was expected to cost 
approximately $81 million. To date, however, both the land 
acquisition and the Mod-Water Project are years behind 
schedule, with the Mod-Water Project now not scheduled for 
completion until 2003, if everything goes right, and it 
probably won't.
    The cost of the land is projected to be at least $50 
million more than the first estimate. So far, less than 60 
percent of the land has been acquired, and most of this has 
been the larger tracts of land. Hundreds of individual 
landowners still must negotiate a deal, while others have never 
been contacted.
    Also in the 1989 Expansion Act was a provision which 
provided for the flood protection for the 8-1/2 Square Mile 
Area. This privately owned area currently has approximately 430 
residents and is used extensively for agriculture. Although the 
Army Corps of Engineers had responsibility for the construction 
of the flood control project, the Department of the Interior 
was responsible for funding it. This arrangement has caused 
nothing but problems and delays. In fact, actual construction 
of the flood protection was never begun.
    Compounding the situation is an amendment to the 1989 
Expansion Act passed in 1994 which provided for acquisition of 
additional lands which affect the restoration of natural water 
flows to the Everglades National Park or Florida Bay. The 
amendment also authorized the Federal Government to provide not 
more than 25 percent of the funds necessary for the total cost 
of the acquisition.
    The 8-1/2 Square Mile Area was included in this amendment. 
However, because of the development within the area, its 
geographic location and elevation, it is clear that the 8-1/2 
Square Mile Area should not be considered to affect the natural 
water flow of the Everglades. I think we will see conclusive 
evidence of that. As a matter of fact, studies commissioned by 
three separate Governors of Florida along with many scientists 
and hydrologists support this finding.
    In regard to the funding, Secretary of Interior Babbitt has 
stated they will contribute 50 percent of the amount needed to 
buy out the 8-1/2 Square Mile Area clearly exceeding the 25 
percent threshold mandated by Congress. It amazes me. The 
authority Secretary Babbitt has for far-exceeding the 25 
percent threshold has not been forthcoming from the Interior 
Department.
    In 1992, the Army Corps of Engineers, in consultation with 
the Park Service, submitted a report which stated that 
acquisition of the 8-1/2 Square Mile Area was not necessary and 
included mitigation measures to protect the area from flooding.
    Contrary to that report, the Park Service maintained that 
this was not an acceptable solution. The Park Service, 
therefore, has refused to release the funds mandated by the 
1989 Expansion Act to provide flood control for the 8-1/2 
Square Mile Area. In fact, in 1998, the Park Service notified 
the Corps of Engineers that it would no longer provide funds 
for the 8-1/2 Square Mile Area flood mitigation.
    Also in 1998, the South Florida Water Management District 
issued a decision endorsed by the Park Service to acquire the 
8-1/2 Square Mile Area rather than implement the flood 
mitigation plan proposed by the Corps of Engineers in 1992. 
However, it is clear from the bill report language accompanying 
the 1994 amendment that the Act does not authorize Federal 
imminent domain.
    It is known that the vast majority of land owners in the 8-
1/2 Square Mile Area are not willing sellers. The lack of 
willing sellers prevents another formidable obstacle to 
overcome before natural water flows begin.
    Regardless of whether the reason is the non-attainment of 
the land acquisition mandated in the 1989 Expansion Act or the 
failure to construct the flood mitigation measures for the 8-1/
2 Square Mile Area or the forced proposal to outright acquire 
the 8-1/2 Square Mile Area, the fact remains that natural water 
flows through the Everglades have been needlessly delayed.
    The Park Service's delays and purposeful inactivity to get 
the water flowing again has severe negative impacts on lands 
that the Miccosukee Indian Tribe has use of, namely Water 
Conservation Area 3A. Because the Park Service has been 
delinquent in implementing any plan that actually moves the 
water, it has been stacking up in the WCA 3A for a number of 
years. This has led to unnaturally high water levels throughout 
the water conservation area. The effect of this water stacking 
has been dramatic. In fact, the Everglades in WCA 3A is 
drowning. Tree islands, known as hammocks, are disappearing as 
tree roots rot because of high water levels. Wildlife within 
this area is dying as well. All of this combination has had and 
will continue to have severe and dire consequences to the 
Everglades if water does not start flowing again.
    One of the primary goals of everyone involved in the 
Everglades is to get the water moving again in a more natural 
flow. For a variety of reasons, however, the Interior 
Department and the Park Service are doing their utmost to delay 
projects and avoid reasonable solutions which will accomplish 
this.
    The fact remains that something has got to be done to 
implement projects that will help restore natural water flows 
as soon as possible. Delaying known solutions only exacerbates 
these problems. The Congress must find ways to implement 
activities which will get the water moving once again. This 
oversight hearing intends to help accomplish this goal.
    I would like to invite Everglades Superintendent Richard 
Ring to please sit at the witness table. Is that you at the 
table?
    Mr. Leary. No, sir. My name is Bill Leary.
    Mr. Hansen. Let us get Mr. Ring up there if we could. Thank 
you. Thank you, Mr. Ring.
    I also want to mention that the Army Corps of Engineers was 
asked to testify today and be present to answer questions. Even 
though their offices received an invitation on April 15, they 
contend that they were unaware of the hearing until last 
Friday, so they will not be here today and even declined to 
send someone to answer any questions.
    Is there anyone here from the Corps of Engineers? We are 
going to have to exercise the power of subpoena around here, 
aren't we? I guess snafus like this one is symptomatic of the 
Federal Government not taking action in the Everglades.
    With that, I will welcome all of our witnesses, and I will 
recognize my friend from Puerto Rico, the Ranking Minority 
Member, for any comments that he may have.
    [The prepared statement of Mr. Hansen follows:]

 Statement of Hon. James V. Hansen, a Representative in Congress from 
                           the State of Utah

    Good morning everyone and welcome to the oversight hearing 
today. We have many people here to testify, so I'd like to make 
an opening statement and then proceed to the business at hand.
    The Everglades, in the State of Florida, represents the 
largest wetlands ecosystem in the United States--about 18,000 
square miles of land, rivers, and lakes. This complex ecosystem 
has been considerably impacted by development and water 
management in central and south Florida. Over many years 
various protective measures for the Everglades have been 
enacted by Congress, but problems still abound. The Clinton 
Administration has more recently announced the South Florida 
Ecosystem Restoration Initiative which led to the creation of 
the South Florida Ecosystem Restoration Task Force by the Water 
Resources Development Act of 1996. This Task Force is comprised 
of a large number of Federal, state, tribal, and local agencies 
and stakeholders and has established three main goals: (1) Get 
the water right, i.e., restoring the natural hydrological 
function of the Everglades; (2) Restore the natural systems by 
land acquisition and changing land use; and (3) Transform the 
developed environment.
    Finding solutions to restore the Everglades has not been 
cheap. Since 1993 approximately $1.2 billion has been provided 
from Federal funding to implement the activities of the 
Restoration Initiative. It is projected that at least $11 
billion will be spent on these activities over the next twenty 
years. Where and how this enormous amount of money has and will 
be spent is, obviously, of great concern to us.
    The issues surrounding the huge area of land and water of 
the Everglades are as complex as the ecosystem. Many of these 
issues are linked to the Restoration Initiative and will be 
examined within the scope of this oversight hearing. Areas in 
particular that are the subject of this oversight hearing 
include the land acquisition requirements in the 1989 
Everglades National Park Protection and Expansion Act and 
subsequent amendment in 1994 and how these requirements impact 
the Modified Water Delivery Project, the Miccosukee Indian 
Tribe, and an area of land known as the 8.5 square mile area.
    In 1989, Congress passed the Everglades National Park 
Protection and Expansion Act which authorized the addition of 
107,600 acres of land to the eastern part of the park. This Act 
also authorized the Modified Water Deliveries Project (Mod-
Water Project) which, when finished, supposedly will restore 
the natural water flow into the Shark River Slough by moving 
water under the Tamiama Trail and into the Everglades National 
Park. It was the express intent of the Congress that all the 
land acquisition be completed by 1994 and was expected to cost 
approximately $81 million. To date, however, both the land 
acquisition and Mod-Water Project are years behind schedule 
with the Mod-Water Project now not scheduled for completion 
until 2003, if everything goes right--and it probably won't. 
The cost of the land is projected to be at least $50 million 
dollars more than the first estimate. So far, less than 60 
percent of the land has been acquired and most of this has been 
the larger tracts of land. Hundreds of individual landowners 
still must negotiate a deal, while others have never been 
contacted.
    Also in the 1989 Expansion Act was a provision which 
provided for the flood protection for the 8.5 Square Mile Area. 
This privately owned area currently has approximately 430 
residences and is used extensively for agricultural. Although 
the Army Corps of Engineers had responsibility for the 
construction of the flood control project, the Department of 
the Interior was responsible for funding it. This arrangement 
has caused nothing but problems and delays. In fact, actual 
construction of the flood protection was never begun.
    Compounding the situation is an amendment to the 1989 
Expansion Act passed in 1994 which provided for acquisition of 
additional lands which affect the restoration of natural water 
flows to the Everglades NP or Florida Bay. The amendment also 
authorized the Federal Government to provide not more than 25 
percent of the funds necessary for the total cost of the 
acquisition. The 8.5 Square Mile Area was included in this 
amendment. However, because of the development within this 
area, its geographic location, and its elevation, it is clear 
that the 8.5 Square Mile Area should not be considered to 
affect the natural water flow of the Everglades. I think we 
will see conclusive evidence of this today. As a matter of 
fact, studies commissioned by three separate Governors of 
Florida along with many scientists and hydrologists support 
this finding.
    In regard to the funding, Secretary of Interior Babbitt has 
stated that they will contribute 50 percent of the amount 
needed to buyout the 8.5 Square Mile Area clearly exceeding the 
25 percent threshold mandated by the 1994 amendment. The 
authority Secretary Babbitt has for far-exceeding the 25 
percent threshold has not been forthcoming from the Interior 
Department.
    In 1992, the Army Corps of Engineers, in consultation with 
the Park Service, submitted a report which stated that 
acquisition of the 8.5 Square Mile Area was not necessary and 
included mitigation measures to protect the area from flooding. 
Contrary to that report, the Park Service maintained that this 
was not an acceptable solution. The Park Service, therefore, 
has refused to release the funds mandated by the 1989 Expansion 
Act to provide flood control for the 8.5 Square Mile Area. In 
fact, in 1998 the Park Service notified the Corps of Engineers 
that it would no longer provide funds for the 8.5 Square Mile 
Area flood mitigation. Also in 1998, the South Florida Water 
Management District issued a decision, endorsed by the Park 
Service, to acquire the 8.5 Mile Square Area rather than 
implement the flood mitigation plan proposed by the Corps of 
Engineers in 1992. However, it is clear from the bill report 
language accompanying the 1994 amendment that the Act does not 
authorize Federal imminent domain. It is known that the vast 
majority of land owners in the 8.5 Square Mile Area are not 
willing sellers. The lack of willing sellers presents another 
formidable obstacle to overcome before natural water flows 
begin.
    Regardless of whether the reason is the non-attainment of 
the land acquisition mandated in the Area, or the forced 
proposal to outright acquire the 8.5 Square Mile Area, the fact 
remains that natural water flows through the Everglades have 
been needlessly delayed. The Park Service's delays and 
purposeful inactivity to get the water flowing again has had 
severe negative impacts on lands that the Miccosukee Indian 
Tribe has use of, namely Water Conservation Area 3A. Because 
the Park Service has been delinquent in implementing any plan 
that actually moves water, it has been stacking up in WCA 3A 
for a number of years. This has led to unnaturally high water 
levels throughout this water conservation area. The effect of 
this water stacking has been dramatic and, although 
counterintuitive, the fact is the Everglades in WCA 3A is 
drowning. Tree islands, known as hammocks, are disappearing as 
tree roots rot because of high water levels. Wildlife within 
this area is dying as well. All of this combined has had and 
will continue to have severe and dire consequence for the 
Everglades if water does not start flowing again.
    One of the primary goals of everyone involved in the 
Everglades is to get the water moving again in a more natural 
flow. For a variety of reasons however, the Interior Department 
and the Park Service are doing their utmost to delay projects 
and avoid reasonable solutions which will accomplish this. The 
fact remains that something has got be done to implement 
projects that will help restore natural water flows as soon as 
possible. Delaying known solutions only exacerbates these 
problems. The Congress must find ways to implement activities 
which will get the water moving once again. This oversight 
hearing intends to help accomplish this goal.
    I would like to invite Everglades Superintendent Richard 
Ring to please sit at the witness table, as I am fairly certain 
that at least a few questions will come his way. I also want to 
mention that the Army Corps of Engineers was asked to testify 
today and be present to answer questions. Even though their 
offices received an invitation on April 15, they contend they 
were unaware of the hearing until last Friday, so they will not 
be here today and even declined to send someone to answer any 
questions. I guess snafus like this one is symptomatic of the 
Federal Government not taking action in the Everglades.
    With that, I'd like to welcome all our witnesses here and 
now recognize the Ranking Minority Member for any comments.

STATEMENT OF HON. CARLOS ROMERO-BARCELO, A DELEGATE IN CONGRESS 
               FROM THE TERRITORY OF PUERTO RICO

    Mr. Romero-Barcelo. Thank you, Mr. Chairman.
    Mr. Chairman, the restoration of the Everglades ecosystem 
has been a matter of considerable importance to this Committee, 
as well as to the entire Congress.
    I remember the first Congress I was here, we had a field 
trip hearing down in the Everglades, beyond the Everglades, 
into Key West to see the effect that the flow of the waters had 
had on the Keys. So it has been something--that and many other 
issues have been before this Committee very, very often.
    The 1989 Everglades National Park Protection and Expansion 
Act as well as the Act's 1994 Amendment involved the bipartisan 
effort of this Committee, as well as the Florida congressional 
delegation. It is our understanding that this oversight hearing 
is focusing on the 1989 Act and its 1994 Amendment, 
particularly the land acquisition of the Congressional Acts.
    Evidently, with funds provided by Congress, the National 
Park Service has made significant progress in acquiring the 
107,600 acres of lands authorized by the 1989 Act for the Park. 
The 1994 Amendment to the Everglades Act specifically 
authorized the Secretary of the Interior to contribute to the 
State of Florida up to 25 percent of the cost of acquiring 
three areas, including an area known as the 8-1/2 Square Mile 
Area. The 1996 Farm Bill and the fiscal year 1999 
Appropriations Act subsequently authorized the Federal 
contribution of 50 percent for these acquisitions.
    The decision of South Florida Water Management District to 
proceed with the acquisition of the 8-1/2 Square Mile Area has 
been a matter of considerable controversy. We understand that 
the National Park Service is undertaking a NEPA review as part 
of determining whether to proceed with contributing to the 
acquisition as authorized by Congress.
    The important thing here is that there has been a great 
delay in the implementation of all of this plan, as the 
Chairman has indicated.
    Also, I would like to point out I have met with my staff to 
try to figure out why the changes in the plans of the 
acquisition of the land and why the interest in acquiring the 
8-1/2 Square Mile Area instead of doing--building up the levees 
and the dams that were supposed to be built around the 8-1/2 
Square Mile Area. I just don't understand. I hope that in this 
hearing we get some clarification as to why these changes have 
been made so we would understand what is the reason instead of 
following the original plan.
    Mr. Chairman, the 1989 Everglades Protection Act and the 
Act's 1994 Amendments are important aspects of the effort to 
restore the Everglades. We look forward to hearing the 
testimony of our witnesses today in regards to these matters.
    Mr. Hansen. I thank the gentleman.
    [The prepared statement of Mr. Romero-Barcelo follows:]

 Statement of Hon. Carlos Romero-Barcelo, a Delegate in Congress from 
                      the Territory of Puerto Rico

    Mr. Chairman, the restoration of the Everglades ecosystem 
has been a matter of considerable importance to this Committee, 
as well as to the entire Congress.
    The 1989 Everglades National Park Protection and Expansion 
Act, as well as that Act's 1994 Amendment involved the 
bipartisan efforts of this Committee, as well as the Florida 
Congressional delegation. It is our understanding that this 
oversight hearing is focusing on the 1989 Act and its 1994 
Amendment, particularly the land acquisition of the 
Congressional Acts.
    Evidently, with funds provided by Congress, the National 
Park Service has made significant progress in acquiring the 
107,600 acres of lands authorized by the 1989 Act for the Park. 
The 1994 Amendment to the Everglades Act specifically 
authorized the Secretary of the Interior to contribute to the 
State of Florida up to 25 percent of the cost of acquiring 
three areas, including an area known as the eight and one-half 
square mile area. The 1996 Farm bill and the Fiscal Year 1999 
Appropriations Act subsequently authorized a Federal 
contribution of 50 percent for these acquisitions.
    The decision of the South Florida Water Management District 
to proceed with the acquisition of the eight and one-half 
square mile area has been a matter of considerable controversy. 
We understand that the National Park Service is undertaking a 
NEPA review as part of determining whether to proceed with 
contributing to the acquisition as authorized by Congress.
    Mr. Chairman, the 1989 Everglades Protection Act and the 
Act's 1994 Amendments are important aspects of the effort to 
restore the Everglades. We look forward to hearing the 
testimony of our witnesses today in regards to these matters.

    Mr. Hansen. The gentleman from Nevada, do you have any 
opening comments?
    The gentlelady from the Virgin Islands?
    The gentleman from Washington?

   STATEMENT OF WILLIAM LEARY, SENIOR COUNSELOR TO ASSISTANT 
SECRETARY FOR FISH, WILDLIFE AND PARKS, NATIONAL PARK SERVICE; 
 ACCOMPANIED BY RICHARD RING, SUPERINTENDENT OF THE EVERGLADES 
                         NATIONAL PARK

    Mr. Hansen. I appreciate our witnesses being with us today.
    Mr. Leary, I will start with you; and then we will ask Mr. 
Ring if you have any comments. The floor is yours.
    Mr. Leary. Thank you, Mr. Chairman.
    My name is Bill Leary. I am senior counselor to the 
Assistant Secretary for Fish and Wildlife and Parks for the 
Department of Interior. I also serve as an advisor to Secretary 
Babbitt on matters relating to the Everglades and south Florida 
ecosystem.
    Mr. Chairman, I have a statement for the record that I 
believe addresses the issues, as I understand them, you wish to 
discuss today. However, in the interest of time, what I prefer 
to do is address the issue that seems to be, at least from your 
statement, the central issue before us, which is the 8-1/2 
Square Mile Area. If you will indulge me, I would like to just 
very briefly explain to you how we got from where we were to 
where we are today with respect to the 8-1/2 Square Mile Area.
    Mr. Hansen. Mr. Leary, let me say this. Your statement and 
all other statements, without objection, will be included in 
the record in full. Any way you want to abbreviate your 
statement is perfectly fine with us.
    Mr. Leary. Thank you, sir.
    The 8-1/2 Square Mile Area needs to be understood--issues 
relating to it need to be understood, in the following context 
that I would like to lay out for you.
    In the 1970s, Congress enacted a series of Acts to make 
sure that water deliveries to Everglades National Park were 
adequate to protect the Park. In 1988, Governor Martinez 
appointed a task force which came to the conclusion that the 
Park was receiving inadequate waters through its main artery, 
Shark Slough.
    In 1989, in reaction to those concerns expressed from the 
State of Florida and others, Congress enacted the 1989 
Everglades Park Protection and Expansion Act which, Mr. 
Chairman, you referred to.
    That Act did three things. It authorized the Secretary of 
the Interior to expand Everglades National Park by roughly 
107,000 acres, to bring more of Shark Slough into Federal 
ownership. Two, it authorized the Corps of Engineers to design 
the Modified Water Deliveries Project to improve the delivery 
of the water into the Park. And, three, it provided that, in 
designing the project, the Corps was to protect the 8-1/2 
Square Mile Area and other residential and agriculture nearby 
areas from the impacts of that water delivery system.
    The Corps of Engineers designed the Modified Water 
Deliveries Project in 1992. The announcement of the design of 
that was immediately followed by Hurricane Andrew which hit the 
area. You will be hearing more about the impacts of that storm 
from one of your witnesses, Mayor Shiver, later. But that 
brought a lot of things to a halt as people were picking up 
their lives down in south Florida.
    In any event, in 1993, the State and others determined that 
Florida Bay was suffering great harm. Florida Bay is also the 
recipient of much of its water from Shark Slough through 
Everglades National Park. So the issue was revisited by the 
Congress in 1994.
    And, Mr. Chairman, as you mentioned, in 1994, the Congress 
suggested and authorized us to take a different approach, 
suggesting that perhaps the best approach was to buy the 8-1/2 
Square Mile Area, Rocky Glades and the Frog Pond to the south, 
and provided the Secretary with the authority to cost share 
with the State of Florida for the acquisition of the 8-1/2 
Square Mile Area and those other properties.
    In 1995, Governor Chiles appointed a committee to look at 
the 8-1/2 Square Mile Area. That committee was composed of 
representatives of the State of Florida, the South Florida 
Water Management District, the Corps of Engineers, Everglades 
National Park, and the residents of the 8-1/2 Square Mile Area.
    They took a year looking at the options, a little bit less 
than a year, and issued a report, a unanimous determination, 
Mr. Chairman, by all of those parties. They rejected full 
acquisition of the 8-1/2 Square Mile Area and rejected the 
original Corps plan. What they suggested was a flow way buffer 
approach to the 8-1/2 Square Mile Area that linked it to the 
flow way buffer that was being designed for the C-111 project 
to the south. It was a unanimous decision.
    The parties then attempted to enter into an agreement, a 
statement of principles to effect that proposal. All parties 
signed onto it. The Corps of Engineers, through the district 
engineer at the time, who is one of your witnesses today, 
refused to sign the statement of principles. So he raised 
questions, legitimate questions, about whether that was the 
best approach. But his refusal to sign meant that the deal fell 
apart.
    The South Florida Water Management District then in 1996 
took it upon itself to review the alternatives to determine if 
it wanted to do a locally preferred option to the Corps' 
project. They engaged in that analysis.
    During the course of their analysis, which began in 1996 
and culminated last November, 1998, the Governors Commission 
for Sustainable South Florida, which is a group in south 
Florida appointed by the Governors and composed of 
representatives of virtually all interest groups, addressed 
this subject. A subcommittee of the Commission, headed by 
another one of your witnesses today, Mr. Lehtinen, encouraged 
the commission to adopt a resolution that was in the nature of 
asking the South Florida Water Management District, to make a 
decision and move on. It encouraged the Water Management 
District to make a decision about what it wanted to do as a 
locally preferred option by December 31st, 1998, and to come up 
with a funding solution for it by September of 1999.
    Heeding that advice, in part, the Water Management District 
Governing Board in November of 1998, after analyzing all the 
alternatives, came to the conclusion that it supported full 
acquisition of the 8-1/2 Square Mile Area. This was well within 
the recommended time line.
    As a result of that decision, the Corps of Engineers is now 
engaged in the NEPA process of reviewing that alternative and 
the options before it. The Department of Interior has engaged 
with the Corps to try to expedite the NEPA analysis for the 
purpose of determining which option to support financially. And 
that is where we find ourselves today.
    Mr. Chairman, because the decision is yet to be determined, 
I don't know what the outcome is going to be. I believe I 
understand the views of the residents of the 8-1/2 Square Mile 
Area area. I have been there. I have met with them. Mr. 
Chairman, for the most part, they want to be left alone. I 
believe I understand the views of the Miccosukee Tribe. I have 
had many spirited and frank conversations with both Mr. 
Lehtinen and Mr. Rice about the concerns of the Tribe. We 
understand them.
    We are attempting, Mr. Chairman, to do the right thing for 
Everglades National Park consistent with our understanding of 
what congressional intent is. We believe you should expect that 
of us, and that is what we are attempting to do, Mr. Chairman.
    I am here representing the National Park Service and the 
Department of the Interior as your witness. I will be happy to 
answer any questions.
    Mr. Hansen. Thank you, Mr. Leary. We appreciate that.
    [The prepared statement of Mr. Leary follows:]

Statement of William Leary, Senior Counselor to the Assistant Secretary 
                    for Fish and Wildlife and Parks

    Mr. Chairman, my name is Bill Leary. I serve as Senior 
Counselor to the Assistant Secretary for Fish and Wildlife and 
Parks for the Department of the Interior. I also serve as an 
advisor to Secretary Babbitt on issues related to the 
restoration of the Everglades and the south Florida Ecosystem. 
I appear here today on behalf of the National Park Service and 
the Department of the Interior.
    I am pleased to be here today to discuss several issues 
related to the restoration initiative. Secretary Babbitt has 
repeatedly and accurately referred to this as the largest 
environmental restoration effort ever undertaken. It is one of 
the top environmental priorities of the Clinton/Gore 
Administration and has enjoyed strong bipartisan congressional 
support.
    Because of the enormity and importance of this initiative, 
the Federal Government has entered into unprecedented 
relationships with the State of Florida and tribal, regional, 
and local governments to guide our collective efforts, despite 
diverse missions and authorities. The progress being made, 
largely under the auspices of the South Florida Ecosystem 
Restoration Task Force, is a result of these partnerships and, 
at the Federal level, from the substantial bipartisan efforts 
of the Congress and the Administration.
    This is an unprecedented undertaking, requiring difficult 
decisions to resolve complex issues. It requires enormous 
cooperation among four separate sovereigns, dozens of State and 
Federal agencies, and hundreds of regional and local 
governments. So far as possible we attempt to achieve consensus 
on how we should proceed. Given differing missions, authorities 
and interests, I believe we are achieving remarkable success in 
south Florida. That is not to say that there are no 
disagreements or difficulties to be overcome. But we have the 
means to resolve them and we do.
    As we understand it, the Subcommittee wishes to discuss 
several issues that affect Everglades National Park: the 
requirements of the 1989 Everglades National Park Protection 
and Expansion Act and 1994 amendments, particularly the land 
acquisition requirements, and how they impact the Modified 
Water Deliveries Project, the Miccosukee Tribe, and the Water 
Conservation Areas.
    Mr. Chairman, we welcome this hearing and the interest of 
the Committee members in the important and ongoing efforts to 
restore the environment of Everglades National Park.

I. Everglades National Park Protection and Expansion Act of 
1989

    A. History

    Everglades National Park, established in 1947, has long 
been considered the most threatened park in the National Park 
System. The history of Federal and State conservation efforts 
in the Everglades are directly linked with development of the 
vast water management system that has led to the decline of the 
ecosystem in general and the park in particular. Both span over 
50 years. The national heritage values at stake are beyond 
question. It is the only protected sub-tropical wetland in the 
nation. Its wonders are widely known, and draw visitors from 
around the nation and the world. The many threats confronting 
its future are also well-known.
    Throughout the park's 52 years, a close Federal and State 
partnership has mutually worked toward achieving its 
conservation objectives. As required by its authorizing 
legislation, the park became a reality in 1947 by the donation 
of lands from the State of Florida. Over subsequent 
enlargements of the park boundary, State participation has been 
a key factor, including the donation of about 43,000 acres 
within the 1989 expansion area.
    A major concern for park restoration surfaced in the 1980's 
and centered on the exclusion of the northeastern portion of 
the Shark River Slough from the park when originally 
authorized. This major tributary was the central flow way of 
the original Everglades, the ``River of Grass'' immortalized by 
the late Marjory Stoneman Douglas. By drawing the park's 
boundary through the middle of Shark Slough, water that had 
once flowed freely in a slow, broad expanse, was now 
artificially funneled to the west. As a result, the eastern 
portion was kept artificially dry.
    In 1970, Congress enacted the first in a series of 
congressional acts designed to address hydrological and 
ecological problems in Everglades National Park and mandated a 
minimum of 315,000 acre-feet of water to be delivered to the 
park from Water Conservation Area 3A. This minimum delivery 
schedule was subsequently modified by Congress in 1984 in 
response to excessive regulatory releases to the park following 
high rainfall. The experimental program for delivery of water 
authorized in the 1984 Act was thereafter extended by Congress 
in 1989 and 1992.
    Nonetheless, the park continued to suffer due to 
interruptions in the natural flow of water into the park 
through Shark Slough. Addressing this threat to the park became 
a local and national cause. Governor Bob Martinez formed the 
East Everglades Task Force in 1988, which reported, 
``Restoration and protection of Everglades National Park cannot 
be accomplished unless the East Everglades area is acquired and 
surface flows are restored through it.''
    Congress responded to this dilemma with passage of the 
Everglades National Park Protection and Expansion Act of 1989. 
Its purposes were to (1) increase the level of protection of 
the outstanding natural values of the park and to enhance and 
restore its ecological values, natural hydrological conditions 
and public enjoyment; and (2) assure the park is managed in 
order to maintain the natural abundance, diversity, and 
ecological integrity of native plants and animals as part of 
their ecosystem.

B. East Everglades Addition to Everglades National Park

    This farsighted legislation reflected Congress' clear 
recognition of the serious problems of declining park resources 
and the need for quick action to correct the problems. The 
legislation expanded the boundaries of the park and authorized 
the Secretary of the Interior to acquire approximately 107,000 
acres in the Expansion Area.
    The acquisition of lands in the Expansion Area has been 
difficult due in large part to the fact that they consist of 
thousands of small parcels, the ownership of which has been 
often difficult to determine. These parcels are comprised of 
land which are regularly inundated with water and essentially 
unfit for development.
    In addition, we have received varying levels of funding for 
this purpose which have been inadequate to allow the timely 
acquisition of the Area. However, in 1997, we began in earnest 
to complete these critical acquisitions as quickly as possible. 
With the help of Congress, we are nearing completion.
    In FY 1998, we received $26 million toward the acquisition 
of the remaining acres, leaving lands estimated at $40 million 
to be acquired. In FY 1999, Congress provided the National Park 
Service $20 million toward that balance. Our FY 2000 budget 
request for the remaining $20 million will allow us to complete 
these acquisitions.
    We have also recently received declaration of take 
authority which will substantially increase the rate with which 
we will be able to complete the acquisition of the Expansion 
Area. Because the land is unsuitable for development and there 
is no public opposition, this authority will allow us to settle 
more quickly with the landowners by avoiding many of the title 
issues that have previously delayed acquisitions. Under this 
authority, all property owners will, of course, receive just 
compensation for their property.
    As of March 31, 1999, 70,881 acres (2,645 tracts) have been 
acquired in the Expansion Area, including 28,792 acquired and 
42,089 donated by the State.
    This leaves 36,343 acres (5,268 tracts) in private 
ownership yet to be acquired to complete the acquisition of the 
area. We have made remarkable progress toward completion in the 
past three years due to increased funding levels from Congress 
and the recent authorization of declaration of take authority. 
The latter is critical due to the difficulty in closing 
acquisitions on so many small parcels, the ownership of which 
is scattered. We are hopeful that the National Park Service 
will have completed its responsibilities in the acquisition of 
lands in the Expansion Area as early as 2001.
    Accordingly, we are pleased to report to the Subcommittee 
that we are well on the way to meeting the intent of Congress 
to put emphasis on completion of land acquisitions to benefit 
the park.

C. Modified Water Deliveries Project

    The Everglades National Park Protection and Expansion Act 
of 1989 also authorized changes in the Central and Southern 
Florida Project to provide for improved water deliveries to the 
park and authorized the Army Corps of Engineers (Corps) to 
mitigate any adverse impact from the project modifications on 
adjacent agricultural and residential areas, including the 8.5 
Square Mile Area (SMA), the Rocky Glades Agricultural Area, and 
the Frog Pond.
    In 1992, the Corps developed the Modified Water Deliveries 
Project, which included the mitigation plan for the 8.5 Square 
Mile Area. This project, funded by the Department of the 
Interior through appropriations to the National Park Service 
``Construction'' appropriation, is designed to restore more 
natural hydropatterns in Water Conservation Area 3 (WCA-3) and 
Shark River Slough. The project is currently scheduled by the 
Corps for completion in 2003 if several difficult issues can be 
resolved. The project will involve the removal and modification 
of existing levees and canals, along with construction of new 
water control structures and pump stations. Some of the project 
features are underway. In December 1998 construction was 
completed on two new water control structures. S-355A and S-
355B, that will help to reestablish flows from WCA-3B to 
Northeast Shark River Slough. The project also required the 
Miccosukee Indian community of Tigertail Camp to be raised to 
prevent flooding the community. This construction feature, 
which also included replacing substandard housing with new 
concrete homes, is complete.

D. 8.5 Square Mile Area

    A significant issue impacting the Modified Water Deliveries 
Project remains the long-standing controversy over the 8.5 SMA. 
The 8.5 SMA consists of about 5,600 acres immediately adjacent 
to the Expansion Area of Everglades National Park and west of 
the L-31N levee. It was developed in the 1960's and has about 
1,200 residents and 365 structures. The issue about how to 
restore natural flows of water to the park through Shark Slough 
and the resultant impacts on the 8.5 SMA have for years 
presented a challenge.
    Despite the authorization for mitigation for the area 
contained in the 1,989 Act, clear evidence of harm to Florida 
Bay, led Congress in 1994 to revisit the issue. Congress 
amended the 1989 Act to authorize the Department of the 
Interior to help acquire the 8.5 SMA, as well as Rocky Glades 
and the Frog Pond, as an alternative to mitigation.
    In 1994, Governor Lawton Chiles established the East 
Everglades 8.5 SMA Study Committee to review alternatives to 
the Corps mitigation plan for the 8.5 SMA. In 1995, the 
committee recommended a solution in the form of a flow way/
buffer project. This option would have required acquisition of 
up to half the acreage within the 8.5 SMA, above the amounts 
needed for the Corps' mitigation plan (which called for 
construction of a canal and levee). The committee's option 
would use the acquired lands as a water detention area to 
provide full (1 in 10 years) flood protection to the remainder 
of the area. It would also link hydrologically with the flow-
way buffer being planned for the C-111 project to the south. In 
1995 the Corps had modified its plan for the C-111 project, 
which included the acquisition of Rocky Glades and the Frog 
Pond, to create a flow-way/buffer to provide for hydrologic 
restoration of the headwaters of Taylor Slough. The SFWMD, as 
local sponsor for the C-111 project has since acquired the Frog 
Pond and a large portion of the Rocky Glades area.
    In 1996, in response to the 1995 committee report, the 
South Florida Water Management District (SFWMD) contracted a 
study and analysis of the flow-way/buffer and 5 other options 
for resolving the 8.5 SMA issue. These options included the 
Corps' original mitigation plan, the committee's modified flow 
way/buffer, and full acquisition. The SFWMD formed a review 
team to monitor the technical aspects of the study, consisting 
of affected agencies and the Miccosukee Tribe of Indians of 
Florida (Tribe). The analysis consisted of hydrologic 
evaluations, water quality analyses, and economic analyses.
    In November, 1998, the SFWMD Governing Board unanimously 
voted to support full acquisition of private properties within 
the 8.5 SMA as a Locally Preferred Option (LPO) to the Corps' 
mitigation plan, subject to cost-share arrangements with the 
Federal Government and Miami-Dade County. A decision of the 
County Commission to provide partial funding has been deferred 
pending resolution of the lawsuit brought by the Tribe against 
the SFWMD alleging that the meetings of the review committee 
violated the State Sunshine Law.
    In response to the SFWMD Governing Board's decision, the 
Corps and the Department of the Interior are examining the LPO 
pursuant to the National Environmental Policy Act (NEPA). The 
review being conducted by the Department to determine its 
participation in funding the LPO will examine various 
alternatives to the LPO.
    The Tribe and residents of the 8.5 SMA have raised a number 
of issues regarding acquisition of the area. The first issue is 
whether the acquisition of the 8.5 SMA will needlessly delay 
implementation of the Modified Water Deliveries Project. Those 
who oppose the LPO contend that it is not needed for 
restoration and that full acquisition will take an inordinate 
amount of time, particularly given the fact that many residents 
oppose the buy-out.
    The restoration benefits to be derived from the various 
alternatives will be part of the on-going NEPA analysis. The 
ability to acquire such lands as are needed will involve issues 
yet to be determined, including the willingness of residents to 
sell and number of parcels to be acquired.
    The second issue is that residents of the 8.5 SMA have 
alleged that they were denied due process as the SFWMD reviewed 
the alternatives and decided to support full acquisition as the 
LPO. While it would be inappropriate to discuss the issue that 
is the subject of litigation between the Miccosukee Tribe and 
the SFWMD, the Department of the Interior fully agrees with the 
Tribe that these decisions must provide due process to the 
fullest extent and will afford ample opportunity for public 
review and comment during our NEPA process.
    Let me state categorically that we do not include a full 
acquisition alternative in our NEPA analysis lightly. We 
believe that any solution must be a sustainable solution for 
all the people of south Florida and meet the goals of the 
Everglades National Park Protection and Expansion Act of 1989, 
as amended.
    We are implementing the Modified Water Deliveries Project 
to meet the clear intent of Congress to restore the Shark 
Slough. We want a solution that will not compromise those 
efforts. The history of the park includes cases where 
structures built for park needs were eventually changed to 
operate for greater flood protection and water supply benefits 
to the detriment of the Park. Under the Corps mitigation plan, 
the residents will continue to live with flooded streets and 
yards, threatening to create similar conflicts between the 
residents of the 8.5 SMA and the Park. We want to avoid that. 
We want to find a sustainable solution.

II. Impact of recent wet years on the Water Conservation Areas 
(WCA)

    Mr. Chairman, related to the 8.5 SMA is the issue of 
impacts in 1998 to the WCAs, particularly those interests to 
the Tribe from the extraordinary high levels of water in the 
system in 1998. A significant part of the problem was the 
inability of the Corps to move water off the Tribal lands and 
toward the 8.5 SMA without impacting the 8.5 SMA residents. 
These issues have come together in striking outline over the 
past 4-5 years. These have been record rainfall years. And they 
have severely strained the water management system. Most 
importantly, they have underlined the limited options the 
current system provides to address flood control needs for an 
expanding population while at the same time, trying to limit 
negative impacts on the Everglades.
    The 1997 wet season (June-October) was higher than average 
leaving the system full when the dry season began. These high 
levels were then followed by a dry season (November to May) 
that was 50 percent wetter than normal due to the influence of 
El Nino. Thus, not only did the high levels not dry down, they 
actually increased, threatening the entire system. On top of 
this, the 1998 wet season loomed.
    At the north end of the system high water in the Kissimmee 
drainage was straining the capacity of Lake Okeechobee. With no 
additional storage capacity, water managers were forced to 
release sufficient amounts of water and sediment into the 
Caloosahatchee and St. Lucie estuaries. These releases were 
unrelated to the plight of the sparrow. These releases 
reinforced need for storage in the north as recommended by the 
Restudy.
    Further down the system, the configuration of water 
deliveries to Everglades National Park is currently constrained 
by the system which funnels most water to the park into western 
Shark Slough. This area is also critical nesting habitat for 
the endangered Cape Sable Seaside Sparrow. In order to provide 
for a minimum 45-day nesting period, the flow gates (S-12 
structures) to the west were at first operated for minimal 
discharges, then closed in the spring of 1998. The agencies 
found ways to route water to the east and south in a manner 
close to being equal to the S-12 expected flows. Levels in the 
Water Conservation Areas were high due to high rainfall and 
discharges from the upper system. This circumstance would not 
have been different if all the S-12s were fully open.
    The emergency action, along with a period of dry weather, 
was successful in limiting the disturbance to nesting in the 
western population of the sparrow. There was an approximately 
75 percent success rate compared to the previous year. Results 
would have been much lower without the emergency actions.
    Expressing concern over flooding in the conservation areas, 
some have misinterpreted the flooding as caused solely by the 
emergency sparrow actions. As a matter of fact, similarly heavy 
rainfall in 1994-95, when park flood gates were fully open, 
produced much higher levels in the conservation areas. And 
during the emergency actions of 1998, amounts of water 
generally equivalent to the expected flows of the western 
gates, was moved through other structures to the east. Simply 
put, the closing of the western S-12 gates was not the 
principal cause of high water in the conservation areas, but 
resulted from rainfall and inflows from the north.
    The conservation areas are currently contoured with levees 
to hold and store water. A principal goal of restoration will 
be to ultimately decompartmentalize these areas to the extent 
possible. This, together with creating additional water storage 
capacity, is the best way of avoiding similar high-water 
conditions.
    Finally, with respect to the emergency actions taken in 
1998, some have criticized the validity of the science 
surrounding the sparrow. In response, the interagency State, 
Federal and Tribal South Florida Ecosystem Restoration Working 
Group convened a peer review workshop and panel. The panel, 
consisting of the nation's top experts nominated by the 
American Ornithological Union, have recently released their 
draft report. The draft report supports the scientific 
credibility of the current sparrow research being relied upon 
by the U.S. Fish and Wildlife Service and the need for 
appropriate management actions.
    The report recommends similar short-term actions to hold 
water in Conservation Area 3-A during high-water events, 
pending completion of the Modified Water Deliveries project. 
The report further points out the lack of reliable data showing 
a decline of tree islands in 3-A over the last decade and cites 
studies showing that increased tree mortality has not occurred 
over that time period.
    All the above characterize the difficulties of preserving a 
wetland national park in the midst of growing pressures and a 
fundamentally changed natural system. We need to increasingly 
look toward the larger system for solutions to problems in its 
constituent parts.
    We are concerned about impacts throughout the system, 
especially including impacts to Miccosukee Tribal lands in WCA 
3-A. We take our trust responsibilities to the Tribe very 
seriously. However, we note that the perpetual Lease and 
Settlement Agreement the Tribe holds in WCA 3-A subjects the 
Tribe's rights in the Leased Area (3-A) to the Corps' authority 
to raise and lower water levels. We are committed to work with 
the Tribe to resolve these issues.
    In all of this, we have a true and sincere concern for the 
Tribe and its interests. Our focus has necessarily and, we 
believe, appropriately been placed on looking after the 
interests of the entire South Florida Ecosystem, which is 
inextricably linked to those of the Tribes, the State and all 
stakeholders in the ecosystem.

III. Conclusion

    I appreciate the opportunity to discuss these and other 
issues related to the restoration of the Everglades. We 
appreciate the continued support of this Subcommittee on behalf 
of the National Park System, including one of its most fragile 
and threatened units, Everglades National Park.
    I will be happy to answer any questions.

    Mr. Hansen. Superintendent Ring, do you have an opening 
statement or anything that you would like to add to what was 
just stated?
    Mr. Ring. Mr. Chairman, I am pleased to be here providing 
what support I can to Mr. Leary as the Department's witness, 
and I will be pleased to assist with any questions and answers.
    Mr. Hansen. Questions for the panel. The gentleman from 
Puerto Rico, Mr. Romero-Barcelo.
    Mr. Romero-Barcelo. Thank you, Mr. Chairman.
    Mr. Leary, the 8-1/2 Square Mile Area, is it prone to 
flooding?
    Mr. Leary. Yes, sir, it is. The 8-1/2 Square Mile Area is 
an area composed of about 5,600 acres. We have a chart that I 
would like to put up that makes it a little bit easier for you 
to see this. I believe we made copies of this available to the 
Committee.
    Mr. Romero-Barcelo. Which chart would that be?
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T7272.001
    
    [GRAPHIC] [TIFF OMITTED] T7272.002
    
    Mr. Leary. Members of the Subcommittee, this chart, of 
which I hope you each have a copy, is a chart which represents 
the Modified Water Deliveries Project. The 8-1/2 Square Mile 
Area is the area in orange on the map. It is roughly 5,600 
acres. It is west of the levee which, for the most part, runs 
north and south and separates the natural system from the built 
environment. It is on the natural system side of that levee. It 
is a wetland, and so it suffers seasonal wet periods as one 
would expect.
    Mr. Romero-Barcelo. Would the Corps of Engineers 1992 flood 
mitigation plan prevent the flooding of the 8-1/2 Square Mile 
Area?
    Mr. Leary. No, sir, it wouldn't. The project that the Corps 
of Engineers designed does not provide full flood protection to 
the residents of the 8-1/2 Square Mile Area. It is designed to 
mitigate any additional harm that might be imposed on the 
residents from operation of the modified water delivery 
schedule. The area is frequently inundated with water. It would 
receive no additional water stacked on top of that from the 
operation of the modified water delivery project. But the Corps 
plan does not provide full flood protection to the residents.
    Mr. Romero-Barcelo. If the 1989 Everglades Protection Act 
authorized the flood mitigation measures to protect the 
developed portion of the 8-1/2 square miles from the adverse 
effects arising from the restored water flows to the Park 
through the northeast Shark Slough, why has the Department 
decided not to provide these flood mitigation features?
    Mr. Leary. For a variety of reasons. First of all, as I 
discussed, after the project was designed, the Governor 
appointed this committee, which came up with a new consensus 
approach to deal with the area.
    In addition to that, in 1994, Congress suggested to us that 
perhaps the better solution was to buy the area. Our concern 
with the original Corps plan was, and remains, that it simply 
will not work to the best benefit of Everglades National Park.
    Mr. Romero-Barcelo. Why will it not work to the best 
interest? What will it do that would be adverse to the best 
interest of the Park?
    Mr. Leary. Mr. Chairman, with your indulgence, it might be 
easiest for me to answer this question if I could go up to the 
chart.
    Mr. Hansen. Speak up, if you would, please. Thank you.
    Mr. Leary. Understand, Mr. Chairman, I am not an engineer, 
but I am going to attempt to answer that question as I 
understand it. This is the Modified Water Deliveries Project. 
It consists of several component parts.
    This is Water Conservation Area 3A and Water Conservation 
area 3B here. These levees 67A and C separate these two water 
conservation areas. Part of the design of the project would be 
to put gates in here that would allow water to flow from Water 
Conservation Area 3A to Water Conservation Area 3B.
    The whole idea of the Modified Water Deliveries Project is 
to restore the natural flow through Shark Slough, which roughly 
runs southwesterly, into Everglades National Park. So you would 
open the 67A and C levies. You would also make changes to 
Tamiama Trail to allow the water to flow down and then flow 
into the Park. Those are the principal features of the project.
    The original Corps design for the 8-1/2 Square Mile Area 
was to put a levee and a seepage canal here essentially around 
the edge of the 8-1/2 Square Mile Area because water levels 
would be higher west of the area in the Park than in the 8-1/2 
Square Mile Area. The hydrology works such that, when those 
conditions exist, water seeps under the levee and floods the 8-
1/2 Square Mile Area. And so the seepage canal was designed to 
collect that water and move it back into the system.
    There are a couple of ways of doing that. One was to move 
the water in the L-31 canal, perhaps in the dry season, south 
down toward Taylor Slough and the Bay. The other was, in wet 
seasons, when there is a lot of water, to move the water north 
along the canal and dump it back into the Park up here at 
Tamiama Trail.
    There are several problems with both of those scenarios. In 
the first place, the Corps plan is designed to move into 
Northeast Shark Slough for the purpose of restoring the Park; 
much of the water will seep out of the park and will have to be 
collected and recycled.
    Another is that putting water into the L-31 canal, whether 
it is moving south or north, raises the level of water in that 
canal, which can have impacts elsewhere in the system. For 
example, if the water is too high moving north, it can result 
in potential damage to the people who live on the east side of 
the canal since the water level east of the canal would be 
lower and the water would seep out and impact them.
    The same is true with water levels to the south. The water 
levels moving to the south, if too high, can create potential 
damage to agriculture and other residents in this southern area 
east of the canal.
    Another problem with the plan is that it moves water 
northward, when the system is designed to operate to move water 
from the north through the system.
    This has become increasingly more important as our 
understanding of the system has evolved in the last few years.
    The Subcommittee may recall that, in the 1996 Water 
Resources Development Act, Congress authorized the Corps of 
Engineers to conduct a comprehensive review of the entire 
system and issue its report to Congress by July of this year. 
It is known as the Restudy. In the process of developing the 
Restudy over the last couple of years, we have all learned a 
great deal more about how this system functions.
    The Modified Water Deliveries Project was originally 
designed to be a stand-alone project for a very important part 
of the system. This is pretty much the heart of the system. But 
in the Restudy we have looked at the entire system. We have 
learned a lot in those intervening years about what restoration 
means. We have learned a lot about what the restoration goals 
should be. And the restoration goals have changed such that we 
expect even more water now to be moving down into this part of 
the system than was contemplated in 1992 more water than the 
Corps plan was originally designed to handle.
    So, now we anticipate that we are going to be moving more 
water down from the north part of the system pursuant to the 
Restudy. This will allow more water to flow into Everglades 
National Park to attempt to restore it closer to what the 
natural system model tells us historical water levels should 
be.
    So all of these factors make the original Corps design, in 
our judgment, inadequate; and so we have engaged with our 
partners in a review of alternatives.
    As I indicated, in 1996, there was a unanimous opinion that 
the best approach was a flow way buffer essentially halfway 
across the 8.5 Square Mile Area. In 1998, the South Florida 
Water Management District suggested that the best approach was 
full acquisition. We are analyzing all of the alternatives in 
light of the additional information we have gained under the 
Restudy authorized by the Water Resources Development Act of 
1996.
    Mr. Romero-Barcelo. Thank you. My time is up.
    Mr. Hansen. The gentleman from Nevada.
    Mr. Gibbons. Thank you very much, Mr. Chairman. I am 
interested in this issue but don't understand it completely. 
But, Mr. Leary, please help me understand your definition of 
full flood protection.
    Mr. Leary. Much like the situation on the east of the L-31 
levee, full flood protection would not only prevent additional 
waters from going into the area, either through seepage or 
otherwise, but help remove water in the area such that the area 
stays as dry as possible.
    Mr. Gibbons. And you don't believe that full flood 
protection can be achieved with a levee; is that what you are 
telling us here today?
    Mr. Leary. The original Corps plan would not provide full 
flood protection. Could a system be designed that would? Yes.
    Mr. Gibbons. Have you undertaken a study of that design?
    Mr. Leary. The Park Service has not, no. The alternatives 
that have been studied have included efforts to provide full 
flood protection to all or a portion of the area.
    One approach that was studied was to put a wall essentially 
down into the ground that would attempt to block the seepage 
from occurring, and I think most parties determined that that 
was not a feasible approach. In fact, that approach was 
suggested in 1992 down in the Frog Pond area.
    The pink area on the map is the Frog Pond area. This 
curtain wall approach was suggested and rejected by the Corps 
of Engineers. I believe Colonel Terry Rice, one of your 
witnesses today, was district engineer at the time, as I 
understand it, the flow way buffer concept was agreed upon by 
Governor Chiles' committee in 1995 and 1996 might provide full 
flood protection to the eastern portion of the 8-1/2 Square 
Mile Area.
    Mr. Gibbons. How much is the eastern portion in terms of 
area?
    Mr. Leary. I don't know the exact acreage of that proposal?
    Mr. Ring. Sir, the Governor's committee report that 
examined that alternative recommended a conceptual plan which 
really didn't pin down the amount of land required for the flow 
way buffer and the amount that would ultimately be provided 
flood protection. I believe the South Florida Water Management 
Districts' engineers report did, and the alternative I think 
was roughly half. Half of the 8-1/2 Square Mile area would be 
acquired for the flow way buffer, and roughly half would be 
provided protection.
    Mr. Gibbons. Well, let me ask this question. Obviously, 
flood protection is something that is normally overseen, 
normally discussed and engineered through the Corps of 
Engineers, rather than the Department of Interior or the Park 
Service. How come you guys have ended up getting involved in 
the design plan of the flood program here?
    Mr. Leary. The Corps of Engineers is responsible for the 
design of the project.
    The way Congress set this up in 1989 is that the project is 
funded through the budget of the National Park Service. I 
believe the rationale for that was that this project was being 
designed, and Congress directed that it be designed, to benefit 
Everglades National Park. Because of that, of course, 
Everglades National Park is very interested in knowing whether 
the project that the Corps implements----
    Mr. Gibbons. Do you have veto authority over what the Corps 
of Engineers proposes?
    Mr. Leary. No, sir. The only issue there would be a 
question of funding by Congress of the project.
    Mr. Gibbons. Has the Interior Department provided funds to 
acquire either the Rocky Glades or the Frog Pond area?
    Mr. Leary. No, sir. To date, no. Those have been acquired 
by the South Florida Water Management District.
    Mr. Gibbons. Mr. Chairman, my time is, I can see, up. I 
will yield to others who may have questions.
    Mr. Hansen. The gentlelady from the Virgin Islands.
    Mrs. Christiansen. Thank you, Mr. Chairman. Just some 
clarification on some of the issues.
    The Frog Pond alternative, would that also require land 
acquisition or relocation of the Tribe, the one that you last 
described?
    Mr. Leary. The Frog Pond is part of a different project. 
The Frog Pond is part of the C-111 project, which is south of 
the 8-1/2 Square Mile Area.
    Mrs. Christiansen. It wasn't an alternative way of 
addressing the same situation, the same problem?
    Mr. Leary. The C-111 project is more designed to help 
restore natural flows through another Slough called Taylor 
Slough, which is to the south. The Frog Pond area essentially 
cuts in half, strides across the Taylor Slough which provides 
waters at the south end of Florida into the south end of the 
Park and Florida Bay.
    Mrs. Christiansen. I have--I went to some of the hearings 
with the Miccosukee Tribe last year, and it is a bit disturbing 
to me to hear that we are back again talking about relocating 
members of the Tribe. What I would like to know is, isn't there 
any alternative plans that could be developed that would 
accommodate the Miccosukee Tribe and not have them have to 
relocate from this area? Have all of the possible ways of 
restoring the water to the Everglades been evaluated?
    Mr. Leary. The 8-1/2 Square Mile Area does not directly 
impact the Miccosukee Tribe. Let me show you on the map. This 
is the 8-1/2 Square Mile Area. The Miccosukee Tribe 
reservation--reserved area is over here. The Tribe can tell you 
far better than me, but my understanding of the concerns of the 
Miccosukee Tribe are largely this: The Miccosukee Tribe is 
interested in getting this water to flow, as the Modified Water 
Deliveries Project is designed, eastward in this direction and 
away from their lands and then southward into Shark Slough.
    The Tribe is concerned that, until water can move eastward, 
water will stack north of them and potentially damage their 
properties here. So they are eager to see the water move over 
toward Shark Slough. We are eager for the water to move over 
here as well because, again, we want to restore flows through 
Shark Slough.
    What the Tribe is suggesting, I believe, is that we need to 
deal with the 8-1/2 Square Mile Area the quickest way possible 
in order to move the water so it does not impact their lands.
    Mrs. Christiansen. Well, I will reserve further questions 
for the Tribe when they come to the panel.
    Mr. Hansen. Thank you.
    The gentleman from New Mexico, Mr. Udall.
    Mr. Udall of New Mexico. Thank you, Mr. Chairman.
    Could you just further explain the issue there with the--
that you were just explaining with Representative Christiansen 
on the 8-1/2 mile area? That is an area--what is the status of 
that and how does that relate to their claim and to the fact 
that they don't want the water on their land?
    I understand about the water moving out on the--you have 
the water moving. I assume that is set up so you want water 
moving more to the east----
    Mr. Leary. That is correct.
    Mr. Udall of New Mexico. [continuing] and around their 
property. And in order to do that you have to--is it purchase 
this 8-1/2 mile area or what?
    Mr. Leary. That is the penultimate issue. The situation we 
find ourselves in is we all want to move the water over to the 
east. The issue is, can we do it without doing harm to the 8-1/
2 Square Mile Area? So the decision is how to address that 
area.
    This area to the immediate west of the 8-1/2 Square Mile 
Area here we have a similar problem. This is the Park Expansion 
Area we are engaged in acquiring so that we can move water 
through it. But, in addition to that, we have to deal with the 
8-1/2 Square Mile Area one way or the other in order to move 
the water.
    Mr. Udall of New Mexico. Mr. Leary, it is your 
recommendation or the Park Service's recommendation that there 
be a purchase of the 8-1/2 mile area?
    Mr. Leary. We have looked at that alternative. The Park 
Service has indicated that it believes that it is the best 
alternative to provide protection to the Park. But that is the 
subject of our NEPA analysis before we make a final 
determination.
    Mr. Udall of New Mexico. Okay. Thank you.
    Mr. Leary. Mr. Chairman.
    Mr. Udall of New Mexico. Go ahead. Go ahead.
    Mr. Leary. I wanted to correct one answer that I gave to 
Mr. Gibbons. The Department of Interior has acquired some of 
the property in the Rocky Glades that are within the boundaries 
of Everglades National Park.
    Mr. Udall of New Mexico. Is it the opinion of the Park 
Service that the flow that is planned under the current system 
will restore the ecosystem of the Everglades? And how quickly 
will it do that?
    Mr. Leary. I am sorry. Are you talking about the original 
Corps plan?
    Mr. Udall of New Mexico. No, the Corps plan we are 
functioning under right now.
    Mr. Leary. We believe that the Restudy plan the Corps is 
developing and will be submitting to Congress in July, when 
implemented with the Modified Water Deliveries Project and with 
the C-111 Project, will meet, or provides us with the means to 
meet, our overall restoration goals for the ecosystem.
    Mr. Udall of New Mexico. Thank you very much, Mr. Chairman.
    Mr. Hansen. Thank you, Mr. Udall.
    I ask unanimous consent that the letter from Lincoln Diaz-
Balart be included in the record.
    Hearing no objection, so ordered.
    [The information follows:]

Letter to Mr. Hansen from Hon. Lincoln Diaz-Balart, a Representative in 
                   Congress from the State of Florida

    Dear Mr. Chairman:
    I commend the Subcommittee on National Parks and Public 
Lands for reviewing the delays in the implementation of the 
1989 Act providing for Modified Water Delivery to the 
Everglades. It is essential that all agencies involved proceed 
expeditiously to implement the program contemplated by the 1989 
Act, so that the proper flow of water to the south can be 
restored, the damage to the State and Tribal lands to the north 
from flooding can be reduced, and the constitutional property 
rights of adjoining homeowners are protected.
    Congressman Dante Fascell's bipartisan 1989 Act is sound. 
It represents a Congressional commitment to the affected 
parties that should be honored. The Act, including the 
protection of the 8.5 square mile area, was based on the 
recommendations of two Governor's Commissions (both a 
Republican and a Democrat Governor). Since passage of the Act 
and the 1994 Amendment, another Governor's Commission (a 
Democrat Governor) has again recommended that the 8.5 square 
mile area be protected. Further delay, including delay caused 
by the ill-founded effort to condemn the homes of the residents 
of the 8.5 square mile area, are bad both for the environment 
and for the affected parties. As part of the 8.5 square mile 
area falls within the district I represent, I respectfully 
request that the Subcommittee disavow any agency efforts to 
condemn homes in the 8.5 square mile area.
    The environment to the north is suffering because water 
flow is blocked, flooding the Florida-owned and Miccosukee 
Tribe-owned portions of the historic Everglades. Natural 
resources of the State and the Tribe are being lost. Members of 
the Tribe and citizens of Florida have a right to expect that 
agencies will carry out the 1989 Act without further delay.
    Homeowners in the area that were promised protection are 
instead being threatened with condemnation. Their property is 
under siege even though the 1989 Act directed the Army Corps of 
Engineers to protect this area and the Report of the 1994 
Amendment specifically disavowed condemnation.
    I respectfully urge the Subcommittee to use its good 
offices to expedite the Modified Water Delivery Project, 
including the protection project for the 8.5 square mile area. 
Our commitment to the Everglades environment, to the Miccosukee 
Tribe, and to our system of constitutional property rights, 
requires nothing less.

    Mr. Hansen. Gentlemen, I want to ask both of you a few 
questions. I appreciate it; and, in the essence of time, I ask 
that you be as brief as you possibly could.
    Mr. Leary, the 1994 expansion amendment made it clear that 
not more than 25 percent of the funding to acquire the 8-1/2 
Square Mile Area can be provided by the Federal Government. 
Where does the Interior Department get the additional authority 
to chip in additional an 25 percent, as stated by Secretary 
Babbitt?
    Mr. Leary. What Secretary Babbitt was discussing in his 
letter was a response to the question, if the South Florida 
Water Management District were to adopt a locally preferred 
option, would we cost share on that project. Secretary Babbitt 
was saying to the South Florida Water Management District that, 
consistent with the overall 50/50 match requirement for the 
entire ecosystem restoration effort which Congress had enacted 
in 1996, we would look at this as part of the overall effort. 
The funds we have been provided from the Congress in the 
intervening years have provided us with the authority to 
acquire lands for ecosystem restoration based on a 50/50 cost 
share.
    Mr. Hansen. In other words, you are referring to the 1996 
farm bill; is that right?
    Mr. Leary. The 1996 farm bill is one of them. But our 
appropriations for the last 2 years from the Land and Water 
Conservation Funds have provided the same cost share 
requirement.
    Mr. Hansen. Do you believe the farm bill supersedes the Act 
of 1994?
    Mr. Leary. I am not suggesting that, sir. I believe that we 
would need to seek and obtain a clarification from Congress as 
to whether the 1994 restriction was or was not limited to the 
funds that were being discussed in that Act.
    Mr. Hansen. But, as you know, you cannot authorize under an 
appropriation bill; and whether or not it was appropriated as 
you just stated, it still has to be authorized.
    Mr. Leary. We would be seeking guidance.
    Mr. Hansen. I can't figure out where the authorization is, 
Mr. Leary.
    Mr. Leary. We would be seeking guidance from Congress in 
that regard.
    Mr. Hansen. Do you have a solicitor's opinion on that?
    Mr. Leary. I do not, sir. I will be happy to request one if 
you would like.
    Mr. Hansen. Do you believe the 1996 farm bill creates any 
condemnation authority?
    Mr. Leary. I don't believe we have examined that question.
    Mr. Hansen. Let me ask this. Do you feel an appropriation 
will create an imminent domain authority?
    Mr. Leary. Likewise, sir, I don't know the answer to that 
question.
    Mr. Hansen. Mr. Leary, has the Interior Department provided 
any funds for the acquisition of the Rocky Glades area or the 
Frog Pond?
    Mr. Leary. The Department of the Interior has--yes. We have 
about $14 million available for contribution to those areas. We 
entered into an agreement with the South Florida Water 
Management District for those funds. The South Florida Water 
Management District has not requested those funds.
    Mr. Hansen. So you really haven't expended any funds yet.
    Mr. Leary. Not for those two projects, no, sir, other than 
the acquisitions within the Park in the Rocky Glades area.
    Mr. Hansen. Why?
    Mr. Leary. Because we have been in disagreement with the 
South Florida Water Management District over the terms that 
were imposed upon us by Congress.
    In authorizing those funds, Congress stated that the lands 
acquired with those funds were to be managed in perpetuity for 
the benefit of Everglades National Park and Florida Bay and the 
South Florida Water Management District, and we have to date 
been unable to agree on the means by which the Department of 
the Interior and Everglades National Park can assure the 
Congress that the directive will be met.
    Mr. Hansen. In 1992, the Army Corps of Engineers issued a 
general design memorandum with the completed EIS which 
essentially gave the green light to start construction of the 
flood protection to the 8-1/2. At that point, a full 2 years 
from the 1994 amendment, why didn't the Interior fund the Corps 
to start construction?
    Mr. Leary. I need to look at the 1992 appropriations 
figures, but we did request over the years and received funding 
for construction of those features as requested by the Corps of 
Engineers. We have met those requests. We have constructed, 
under the Modified Water Deliveries Project, a number of the 
features of that project but not the feature involving the 8-1/
2 Square Mile Area.
    Mr. Hansen. September 23rd, Assistant Secretary Berry wrote 
to Congress asking for a declaration of taking authority. What 
is the status of that request?
    Mr. Leary. That request has been approved by the 
committees, and we are undertaking to implement that authority. 
We believe that that authority will enable us to speed up the 
completion of the acquisition of the Park expansion area by a 
number of years, and we are very grateful to have received that 
authorization.
    Mr. Hansen. I am always curious, as I try to think back on 
this, why this Committee wasn't asked, especially since we are 
referenced in the first page of that.
    Mr. Leary. Mr. Chairman, the reason that this Committee did 
not receive that request is because the Park Service has been 
operating for over 21 years on what we understand is the policy 
of this Committee that we do not need to request specific 
authority from this Committee, but that we provide the 
Committee with quarterly reports. That policy is expressed in a 
letter we received over 22 years ago from this Committee. If 
the Committee, under your leadership, Mr. Chairman, has changed 
that policy, we were unaware of it, and we apologize.
    Mr. Hansen. Let me ask this, if I may. In your testimony, 
you state that there is clear evidence of the harm to Florida 
Bay if the Department of Interior does not acquire the 8-1/2 
Square Mile Area. Would you mind quickly telling us what that 
clear evidence is?
    Mr. Leary. The clear evidence that I was talking about, 
sir, was evidence that the State and the Federal Government 
determined back in 1993 that Florida Bay was continuing to 
experience great harm, and that caused the State and the 
Department of the Interior to come to Congress and ask for 
greater authority to move forward in ways that would be 
protective of the Bay.
    Mr. Hansen. Also in your testimony, you seem to criticize 
the Chiles Commission report. Did the Dade County Commission 
endorse it and the south Florida water folks endorse that? What 
was the conflict between you folks?
    Mr. Leary. Sir, you misunderstood me. I was not at all 
criticizing the Chiles Committee report. Indeed, what I was 
suggesting was that we had unanimity of the parties in interest 
as a result of that report and were prepared to move forward on 
the flow way buffer. But the district engineer at the time, 
Terry Rice, refused to sign the agreement, and so the agreement 
fell apart.
    Mr. Hansen. The 8-1/2 bothers me. Do we have any willing 
sellers in that area?
    Mr. Leary. The South Florida Water Management District 
believes that there are many willing sellers in the area.
    Mr. Hansen. How many folks have you got in that area?
    Mr. Leary. I believe there are about 1,200 residents is 
what I understand, about 365 structures.
    Mr. Hansen. Go back to your term. What percent would be 
willing to sell their property of that? Have you got any wild 
guess on that at all, Mr. Leary?
    Mr. Leary. I do not. I have been told anecdotally from the 
South Florida Water Management District that the number of 
willing sellers is in the 300-plus range, but I do not know of 
my own knowledge. We certainly have taken no poll out there.
    Mr. Hansen. Thank you. I appreciate your comments.
    The gentleman from Puerto Rico.
    Mr. Romero-Barcelo. Thank you, Mr. Chairman. I would--Mr. 
Leary, the 1992 flood mitigation proposal, is it still carrying 
the hydrological conditions we need? And, also, does it leave 
intact all of the residences and the property in the 8-1/2 
Square Mile Area?
    Mr. Leary. The original Corps project would require the 
acquisition of some lands necessary for construction of the 
levee and the seepage canal, but it would not require, 
obviously, as much acquisition as would the other alternatives.
    Mr. Romero-Barcelo. And then what would be the impact on 
that land of the Governor Chiles' study committee?
    Mr. Leary. That proposal would impact roughly half of the 
area. As Mr. Ring suggested, it was more of a conceptual plan, 
as opposed to an exact design. But, as we understood it, it 
would require the acquisition of roughly the western half of 
the 8-1/2 Square Mile Area.
    Mr. Romero-Barcelo. Finally, Mr. Leary, your critics say 
that--the critics of the Department of Interior decision say 
that the reason that they want to acquire the--the Park Service 
wants to acquire the 8-1/2 is to establish a buffer, which will 
be against existing law, to acquire land for a buffer. How 
would you respond to that criticism?
    Mr. Leary. Well, I believe what they are referring to is 
report language in the 1994 Act that talked about how this 
authority is not to create a Federal buffer. And no one is 
suggesting the creation of a Federal buffer. If the Federal 
Government did indeed hypothetically down the road decide this 
was the approach to take, it would provide grant funds to the 
South Florida Water Management District, and the South Florida 
Water Management District would buy these properties.
    And you understand that part of the rationale here and 
justification for interest in the full acquisition is not just 
limited to the issue of the flow of water. That is but one part 
of the issue of restoration. The rest is this. One of the 
things that the Everglades ecosystem lacks is adequate short 
period wetlands that help serve as an ecological buffer between 
the built environment and the Everglades. And that is what the 
8-1/2 Square Mile Area is, short-term wetlands.
    Mr. Romero-Barcelo. Thank you, Mr. Leary.
    With that, Mr. Chairman, I finally would like to ask 
unanimous consent to submit a copy of a letter signed by 
Senators Graham and Mack to the Mayor of Miami-Dade County, 
Alex Penelas, dated February 24, 1999, supporting the 
acquisition of the 8-1/2 Square Mile Area.
    Mr. Hansen. Without objection, so ordered.
    [The information follows:]

Letter to the Hon. Alex Penelas, Mayor, Miami-Dade County, Florida from 
                  Hon. Bob Graham and Hon. Connie Mack

    Dear Mayor Penelas:
    We want to share our views with you as deliberations 
continue on the very difficult issues surrounding the modified 
water delivery project and its impact on the 8.5 Square Mile 
Area. A decision to acquire this area from willing sellers 
marks an important step in the process of rehydrating 
Everglades National Park and restoring Florida Bay.
    This is a very difficult and emotional issue, but this is a 
situation that will continue to linger until the entire area is 
acquired or provided with flood protection. Full acquisition is 
not only the best alternative for the Everglades; it is also 
the best alternative for all Miami-Dade County taxpayers.
    For these reasons, we support the decision made last year 
by the Governing Board of the South Florida Water Management 
District to fully acquire the 8.5 Square Mile Area and urge you 
to ratify the decision when it comes before the Miami-Dade 
Commission. Finally, we pledge our strong commitment to ensure 
that the Federal Government is an active financial partner with 
the South Florida Water Management District and Miami-Dade 
County in order to ensure that the residents of the 8.5 Square 
Mile Area are fairly, and fully, compensated.

    Mr. Hansen. Let me go back to some of these things we are 
talking about.
    I still can't quite fathom this 8-1/2. Go back to the law; 
and, as the gentleman from Puerto Rico just stated, the 
Committee knows this Act does not authorize the use of Federal 
imminent domain authority, nor does it create a Federal buffer 
zone outside the Park.
    Now, I guess you could give it over to the water district, 
but then, if I understand this right, being the past speaker of 
my State, and I don't know if these laws are the same. I have 
no way of knowing. Then they would have to have this Florida 
State legislature give them the right of imminent domain.
    And if they can't do that, you guys are dead in the water. 
You don't have any authority at all to take this 8-1/2. If you 
have got a willing seller, yeah, but my staff tells me here 
that is the infinitesimal amount and that some of those folks, 
when they were interviewed, felt coerced that they were going 
to get imminent domain. I don't know if that is true or not, 
but I know that if people think they are going to lose 
something, they probably would say that.
    So here we have got this agriculture area. I still don't 
understand the hydrology or the science behind why that is 
necessary. Maybe that is just my limited knowledge of this, but 
I don't think you have any right at all to take that 8-1/2 
square miles.
    Mr. Leary. Mr. Chairman, we haven't come to the question of 
the need for imminent domain authority in the 8-1/2 Square Mile 
Area because, again, the issue remains unsettled as to what 
project will ultimately be implemented. As Mr. Romero-Barcelo 
suggested, there are a number of people who support full 
acquisition of the area. Members of the Florida delegation, 
including Senators Graham and Mack, support full acquisition. 
There are a number of people who do not, but the point is that 
it is speculative at this point to determine the need for 
imminent domain authority in the area.
    Certainly, there are a number of entities which might have 
imminent domain authority or seek it if it is needed. That 
would include the Department of the Interior. It would also 
include the South Florida water management district, the State 
of Florida, Dade County, and the Corps of Engineers; any number 
of entities.
    Mr. Hansen. Mr. Leary, regardless, if there are a number of 
people who support it isn't the issue, as I see it; and also as 
I look it, it is not the issue of whether or not the Department 
of Interior or others eventually would have imminent domain 
when they have a great big roadblock called Federal law 
standing in front of them.
    Someone either has to change the law, or you have got to 
get it from another source; and until you can get it, you have 
got to get rid of this 1994 Act because we look at--the 1996 
Farm Act doesn't even come close to helping you out in any of 
those areas. So you have got a heck of a roadblock staring you 
in the face, in my mind, if that is what you want to do and 
your scientists feel that.
    I don't have a dog in this fight, but still, on the other 
hand, this has got so many problems hanging on it. I would be 
very concerned if I was in the shoes of either you or Mr. Ring 
on how you really want to go about doing this. I think you're 
setting yourself up for all kinds of litigation. We will 
probably all be pushing up daisies by the time this thing is 
all resolved.
    Mr. Ring, the clear intent of the Park Expansion Act of 
1989 was to acquire this eastern expansion area by 1994. What 
has taken so long for the Park Service to acquire these lands, 
the eastern expansion area?
    Mr. Romero-Barcelo. Mr. Chairman, can I contribute 
something to the gentleman? I don't think the Department of 
Interior has any authority at all over the Park Service to 
acquire any lands. They can only contribute, and it is Florida 
South Water Management that can do the acquisition, and I think 
the only thing appropriate to contribute--I think that----
    Mr. Hansen. I appreciate the comments.
    Mr. Leary. Mr. Chairman, might I respond to that question?
    Mr. Hansen. Sure, Mr. Leary.
    Mr. Leary. As I understand the question, you are talking 
about the park expansion, the additional areas to the park 
itself. Congress did indeed authorize us to acquire those 
acres. We received about 40,000 acres from the State of Florida 
and have been engaged in acquiring those lands since, with 
funds which have been made available to us by Congress for 
those acquisitions.
    What we have encountered is a number of difficulties in 
acquiring those properties from this simple fact: This is 
property that is largely under water most of the time. This is 
the classic example of swamplands that people bought decades 
ago. It is land that is largely undevelopable, but is in small 
tracts, Mr. Chairman. Many of these parcels are quite small.
    It takes just as much work to acquire the small tracts as 
it does large ones. It is difficult to get clear title on some 
of these properties because they have such little value that 
owners have even not gone through probate on some of these 
properties. It is an extremely difficult process.
    We have acquired those that are the easiest to acquire, and 
now we have run into the slow difficulty of going through 
individual condemnation actions, trying to clear title. That is 
why we sought the declaration of take authority, and that is 
why we believe, with it, we can clear this quickly.
    Mr. Hansen. Mr. Ring, essentially the park was expanded in 
1989 for the restoration of the Everglades ecosystem and the 
natural flow of water. Part of this entailed the acquisition of 
some property owned by the Hernandez family, the Carter family 
and the Hect family. Are Park Service personnel living in the 
homes that are acquired on this property?
    Mr. Ring. There are Park Service rangers living in some of 
the homes, of the few homes that were acquired inside that area 
of the east Everglades expansion area.
    Mr. Hansen. How long is that going to go on?
    Mr. Ring. That was initiated as an interim measure pending 
the completion of land acquisition and the revision of the 
park's general management plan to determine how we will be 
managing the area. It creates a presence out there while the 
area has been partially acquired, not completely acquired, and 
is not under our management and control, in order to prevent 
things like dumping.
    There was an automatic weapons shooting gallery out there, 
quite a number of problems in the area that we were trying to 
stop, so we are trying to create a presence to provide 
protection to the Federal properties pending the completion of 
acquisition and the completion of our management plan.
    Mr. Hansen. Okay. You mention ``interim.'' So this was 
essential for the natural restoration of the Everglades. 
Employees are living there. You fully intend they will be gone, 
you will destroy these homes, all that type of thing; is that 
right?
    Mr. Ring. We are in an advanced stage now of land 
acquisition, we have about 70,000 acres acquired. Assuming the 
approval of the fiscal 2000 budget request, we will have the 
funds to complete the acquisition. This fall, we will be 
starting the planning process to amend the park's general 
management plan, and we will be examining with the public and 
all of our partners what are the appropriate actions and 
activities and facilities and management presence that we need 
out there.
    The basis for any continued presence on the part of any of 
our rangers out there in homes will be discussed and determined 
as a result of that planning. It will not be continued as a 
result of the interim decisions we make.
    Mr. Hansen. You made a statement describing, quote, a 
sustainable solution or sustainable approach to the 8-1/2 
Square Mile Area. Give me your definition of sustainable. What 
do you mean by that?
    Mr. Ring. Sir, Mr. Chairman, a number of the agencies, 
ourselves included, have been trying to address the issue of 
sustainability in south Florida as part of an overall ecosystem 
approach towards restoration. Sustainability means a decision 
that will not create problems elsewhere. It will fit into a 
context of a comprehensive solution and it will last.
    Mr. Hansen. Mr. Ring, do you believe that there are any 
people down there being threatened or coerced or intimidated by 
the water management district into selling any of their 
property?
    Mr. Ring. I have absolutely no knowledge of that, sir.
    Mr. Hansen. Going back to the gentleman from Puerto Rico, 
do you believe the acquisition of the 8-1/2 would create a 
buffer zone for the park?
    Mr. Ring. Mr. Chairman, I am sorry?
    Mr. Hansen. Do you believe that the acquisition of the 8-1/
2 would create a buffer zone for the park?
    Mr. Ring. I believe that, and I have indicated that, the 
proposal of the water management district adopted and 
recommended to the Corps would indeed solve the water 
management issues associated with the completion of the 
Modified Water Delivery Project in that area in a sustainable 
manner. And, I believe it would also add critical short 
hydroperiod wetlands to the overall ecosystem, and that would 
provide significant ecological benefits.
    Mr. Hansen. Thank you. Let me ask you one more.
    There are other properties acquired as directed by the 1994 
amendments for Everglades restoration, particularly in the area 
known as the Frog Pond, when in private hands which is used 
extensively for agriculture. Since the Park Service was in 1994 
arguing that these lands were also essential for the 
restoration, what is the current use of these lands?
    Mr. Ring. Mr. Chairman, my understanding is that the South 
Florida Water Management District acquired the Frog Pond as a 
result of trying to acquire the land necessary for the C-111 
project of the Corps of Engineers. They tried to acquire the 
western three sections of the Frog Pond and, in negotiations 
with the owner, ultimately acquired the entire area.
    They leased back the land for seasonal agriculture on a 
year-to-year basis for two reasons, as I understand it, but I 
would urge you to contact the South Florida Water Management 
District directly on this.
    One was to soften the impact on the agricultural economy in 
south Dade, and the other was to prevent the intrusion of 
invasive exotics which would likely come into that land if it 
were left fallow pending the completion of the actual project 
features associated with the C-111 project that were scheduled 
to occur over a 5-to-7-year period.
    Mr. Hansen. Thank you, Mr. Ring.
    Member of the Committees, Mr. Sherwood, you weren't here 
earlier. Do you have any questions?
    Mr. Sherwood. Thank you, Mr. Chairman.
    And I am asking this a little tentatively, coming in as 
late as I have, and I have been to the Glades and spent time in 
that area, and I think I understand the theory of--that it is a 
sheet water flow going south out of the big lake all the way to 
the bottom of the peninsula, and that that has been interrupted 
and that that is the problem.
    But what I don't understand about this 8-1/2 acres of land, 
I have information that that is at a higher elevation, and it 
doesn't participate in the sheet water flow. So why is that 
important that you buy that 8-1/2 acres of ground?
    Mr. Leary. For a couple of reasons, the justification would 
go as follows. For one thing, the Shark Slough area immediately 
to the west of the 8-1/2 Square Mile Area, which is in orange 
on the map there, is the lowest portion of Shark Slough. The 8-
1/2 Square Mile Area is at the edge, and the elevation does 
indeed go up.
    We are not talking about severe elevation here. It is----
    Mr. Sherwood. I understand.
    Mr. Leary. But the western portions of the 8-1/2 Square 
Mile Area are indeed as low as the areas immediately to the 
west in the Park expansion area. The area becomes flooded, as 
water levels increase, whether it is during heavy rainfall 
events or otherwise. In Florida there are two seasons, a wet 
and a dry season. During very high water rain events, that 
level of water can cause flooding throughout the entire 8-1/2 
Square Mile Area.
    The--but the other rationale for acquisition of the 8-1/2 
Square Mile Area is the one that Superintendent Ring just gave, 
which is that the Everglades does not--suffers from a lack of 
short season hydroperiod wetlands, and that is an ecological 
benefit that this area could provide to the Everglades system.
    Mr. Sherwood. I didn't understand that.
    Mr. Ring. Sir, in 1993 we gathered as many scientists as we 
had available to try and critique the problems of the 
Everglades' ecosystem. They provided a report which provided 
the basis for the Corps proceeding into their overall 
hydrologic restoration effort. They determined that the 
fundamental characteristics of the predrainage system that 
needed to be restored were a hydrologic regime which featured 
dynamic and sheet flow, and large spatial scale.
    Fifty percent of the original Everglades has been lost. So 
the recovery of some of that spatial scale was critical, and 
what they referred to as ``habitat heterogeneity''--that means 
a mixture of different habitats--and what has been lost on the 
Everglades, particularly on the eastern side, has been the 
edges, the areas that aren't always flooded.
    The deep, central sloughs often have water in them all year 
round. Wading birds, for instance, can forage there during the 
dry season when the water is low in the deep, central sloughs, 
but as those fill up in the wet season, they must have shallow 
wetland areas to forage to survive. They move as that habitat 
is available to them.
    What has been lost on the edges are those short hydroperiod 
wetlands, the wetlands that are inundated with water only 
portions of the years. Those portions of the year are critical 
to providing support and habitat for populations of wading 
birds, particularly when the central sloughs are filled with 
water during the wet season.
    So, there is a critical loss of function to the Everglades. 
While 50 percent of the spatial scale has been reduced, 
approximately 90 percent of the historic levels of wading birds 
have disappeared, and that is as a result of the loss of some 
of those critical edge habitats.
    Mr. Sherwood. So, if you bought that edge habitat, what 
would you do with it?
    Mr. Ring. I think the South Florida Water Management 
District has proposed the acquisition of that area as a way to 
provide a sustainable solution to the restoration of flows into 
Shark Slough, and we see benefits from that proposal associated 
with the additional habitat that it would create. The South 
Florida Water Management District would be the land owner and 
the acquiring agency and would manage it the way it manages 
many areas throughout the Everglades system for both water 
management purposes and for natural habitat.
    Mr. Sherwood. I see we have run out of time. I developed 
that a little more, but maybe it is----
    Mr. Hansen. The gentleman from Nevada, Mr. Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman. I have just 
a couple of brief questions.
    First, Mr. Ring, given the enormity of the size of the 
Everglades National Park, is it your testimony today that this 
8-1/2 Square Mile Area is absolutely essential to the 
restoration of the entire Everglades system?
    Mr. Ring. The restoration of the Everglades system is a 
vast and very, very complicated problem. It has a number of 
difficult issues associated with it. Finding a sustainable 
solution in the 8-1/2 Square Mile Area that is consistent with 
the long-term restoration goals--not simply the hydrologic 
goals, but the overall ecological restoration goals as well is 
essential to achieve.
    Mr. Gibbons. Let me ask, once you achieve acquisition of 
this 8-1/2 Square Mile Area to do what you want to do, which is 
eliminate all the people off of it so you can freely flood it 
when you need to, what prevents the water flow from exceeding 
the limitations of the 8-1/2 Square Mile Area into other areas?
    Mr. Ring. Sir, that is a question that is probably more 
properly directed to the South Florida Water Management 
District and the Corps of Engineers, but there is a canal and 
levee system, the eastern protective levee, that runs down 
along the edge of the Everglades and separates it from the 
built system. The Corps of Engineers and the South Florida 
Water Management District have designed and are attempting to 
maintain a design that allows for the restoration of historic 
hydrologic conditions in the Everglades and the provision of 
authorized flood protection east of the levee.
    Mr. Gibbons. Does that levee system work?
    Mr. Ring. Sir, the Modified Water Delivery Project and the 
C-111 project have been authorized, approved and are being 
undertaken, as well as the restudy which calls for a replumbing 
of the entire system. I think that is a fairly good indication 
that the system, as it exists in south Florida right now, 
doesn't work, doesn't work for a variety of purposes in many 
areas.
    Mr. Gibbons. So you are telling us today that the levee 
that is there on the eastern shore isn't going to work and it 
will conclude to flood. There will be seepage outside it once 
you allow for flooding in the 8-1/2 Square Mile Area, as well?
    Mr. Ring. No, sir, I'm not saying that.
    Mr. Gibbons. Well, if that is the case, why wouldn't the 
levee that you want to put on the western side of the 8-1/2 
Square Mile Area keep water out and seepage out of the 8-1/2 
Square Mile Area?
    Mr. Ring. Sir, I am trying to indicate that the Corps of 
Engineers and the South Florida Water Management District, the 
local sponsor, are trying to come to grips with a number of 
different engineering issues to improve the system that is 
there. There are problems that are being addressed through 
these projects and through the restudy.
    Your question about the original seepage canal system on 
the western side of the 8-1/2 Square Mile Area is one that Mr. 
Leary spoke to you about before, and that is, it does not make 
conditions any better in the 8-1/2 mile area, which is an area 
that already floods. It simply keeps that area from getting 
worse as some additional water is introduced into the east 
Everglades as part of the Modified Water Delivery Project.
    Mr. Gibbons. And your introduction of the additional water 
into the east Everglades, is that changing the flow of water 
through or around the reservation that we talked about earlier, 
that is northwest of this area?
    Mr. Ring. Are you referring to the Modified Water Delivery 
Project, sir?
    Mr. Gibbons. Well, yes.
    Mr. Ring. Okay.
    Mr. Gibbons. Because you want to now take it to the east 
and then southwest, come back through--out Shark River Slough.
    Mr. Ring. Right. It would move the flows that are currently 
being funneled to the west through Water Conservation Area 3A 
and being delivered into Everglades National Park through a 
series of structures called the S-12 structures. On the western 
side of Shark Slough, it would redistribute those flows to the 
east to be consistent with the way they flowed historically.
    Historically, about two-thirds of the water that flowed 
across Tamiama Trail into Everglades National Park through 
Shark Slough came east of the L-67 extension levee, which is 
the old boundary of the park. It came through the east 
Everglades addition.
    Today, something on the order of 75 percent of the flows 
that come into the park come to the west of that extension 
levee and significantly inundate the western parts of Shark 
Slough, much higher than they ever were inundated historically, 
and that is area where the Miccosukee Reserve area is. It also 
causes funneling and stacking up of water in Water Conservation 
Area 3A immediately to the north of that location.
    There are times during high water conditions when water can 
be 3 to 4 feet higher immediately to the west of the L-67 levee 
than it would be on the same day immediately to the east of 
that levee.
    Mr. Gibbons. Thank you, Mr. Chairman.
    Mr. Hansen. The gentleman from Tennessee, Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    Is it true what I have just been told, that we have spent 
about $1.3 billion on this Everglades restoration project so 
far?
    Mr. Leary. The figure we have seen is about $1.2 billion. 
That figure is largely composed of appropriations over the 
years for several ongoing projects, such as the restoration of 
the Kissimmee River. You may recall that years ago the river 
was straightened, and we are in the process of taking it back 
to its original meander.
    The figure also includes expenditures for the Modified 
Water Delivery Project and for the C-111 project, C-51 project, 
but----
    Mr. Duncan. Is it also true--is it true that it is going 
to--that the conservative estimates are that the total cost for 
this is going to be about $11 billion over the next 20 years?
    Mr. Leary. The $1.2 billion figure also includes normal O&M 
costs associated with managing the parks and the refuges and 
the sanctuaries and that sort of thing that--two-thirds of that 
are normal operations. Most of the new funds in that figure are 
for land acquisition.
    Mr. Duncan. I think you are going to have a real problem in 
that, you know, the entire budget of the National Park Service 
right now is about $1.3 billion or something like that, and 
then you talk about all this money as if it is just all there 
and, you know, I just don't believe it is going to be there.
    And then I am told that this--the acquisition of this 8-1/2 
square miles is going to cost about 6--is it $60 million; is 
that what you have estimated?
    Mr. Leary. I believe the estimate for full acquisition is 
closer to $112 million, I believe.
    Mr. Duncan. A hundred and twelve? Does that count the 
litigation costs and that type of thing? Is that in there, too?
    Mr. Leary. I don't believe it is.
    Mr. Duncan. Well, you know, this is just--I mean, the Great 
Smoky Mountains National Park, its entire budget is about $11 
million a year, and that is the most heavily visited national 
park in the nation. This is just sounding crazier and crazier 
the more we get into it. The money's just not there.
    Mr. Leary. If I may?
    Mr. Duncan. Not even close.
    Mr. Leary. The vast majority of the figure that you cited 
is the figure that has been released by the Corps of Engineers 
for implementation of the Restudy, which is a series of over 60 
projects that will help restore the entire ecosystem and, among 
other things, provide protection to one of our most endangered 
parks, Everglades National Park. This restoration effort is 
going to take 20-plus years to be implemented under the best of 
circumstances.
    Mr. Duncan. Yes, but you are talking about ridiculous 
amounts of money, and if we were to even come close to the 
figures that you are talking about, you would be taking away 
money from national parks all over this--all over this country. 
I mean, it is like the Smoky Mountains get about 9 or 10 
million visitors a year, three or four times what any other 
national park gets, and the Smoky's budget is $11, maybe 
heading to $12 million, and you are talking about $112 million 
just to acquire this one little piece of property.
    I will tell you, it is just ridiculous, just ridiculous. 
You people are dreaming, and you are being very unrealistic 
about this whole thing. I mean, you just--you have to be a 
little more realistic. There are things, if we were going to 
create an absolutely perfect world and spend just ridiculous 
amounts of money, I mean we could spend the whole Federal 
budget on this project, but it just wouldn't make sense to do 
it. There are some things, you have to be a little bit more 
realistic.
    I know the easiest thing in the world to do is to spend 
other people's money, but you have to be a little more sensible 
and a little more thrifty and frugal and economical at some 
point.
    Thank you, Mr. Chairman.
    Mr. Hansen. Thank you, Mr. Duncan, and I thank you, Mr. 
Leary and Superintendent Ring, for being with us. We appreciate 
your attendance with us today.
    I would like to ask you if you can possibly stay for these 
next two panels. It would be nice if you could. I know we are 
all very busy around here.
    Mr. Leary. I wish I could. I have a hearing on Thursday I 
need to prepare for, sir. Thank you very much.
    Mr. Hansen. I certainly understand. I would like to point 
out to you, this thing is fraught with problems, but I don't 
know how you get around this 1994 law. I have been reading it 
while these other gentlemen have been talking. Very clear with 
respect to any lands acquired pursuant to this subsection, the 
Secretary may not provide more than 25 percent. Regardless of 
what the Secretary said, I don't know how he gets around that.
    The Committee does not authorize the use of Federal 
imminent domain authority nor does it create a Federal buffer 
zone in the park.
    Just one after another, just like it was written to stop 
some of the things that I understand are going on, and--but 
anyway, I won't bore you with that, but I would sure like the 
Solicitor's opinion on some of those things. The Solicitor's 
opinion I would like is the difference between the 1994 Act and 
the 1996 Farm Act, does he feel that one supersedes the other. 
I would be very curious to know that. If you could provide that 
to the Committee, I would appreciate it.
    [The information may be found at the end of the hearing.]
    Mr. Hansen. And also, if it is all right, Superintendent 
and Mr. Leary, a lot of us have a lot of questions we would 
like the ask about this issue, and we would like to submit 
those to you, and we would appreciate the answers if we could 
get them. Would that be all right?
    Mr. Leary. We would be happy to answer any follow-on 
questions you have, and if we have any documents that we wish 
to provide the Committee by way of explanation, we would 
appreciate it if you would accept them.
    Mr. Hansen. We really appreciate that, and let me just add 
and I don't mean this in any unkind way, but we would 
appreciate them relatively soon. We have this problem. I am one 
of the senior members of the Armed Services Committee, and 
whenever we ask somebody in the Pentagon for something, I think 
18 months later we get the answer. So we just get a little 
weary of that, if we may. But you folks have always been much 
better; we appreciate that.
    Mr. Leary. Thank you, sir. One last thing, we would 
encourage the members of this Subcommittee to come visit and 
allow us to demonstrate to the members of the Subcommittee 
exactly what we are doing down there and why, and why the 
administration considers it such a high priority.
    Mr. Hansen. We appreciate that because the gentleman from 
Tennessee pointed out, we look at the parks system, and I am 
constantly fooling around with one of these 374 units of the 
park systems, or the 73 that we have of national monuments till 
the President makes another one, but anyway, we are always 
concerned about that.
    So this is one that is really creating kind of a big issue 
to a lot of us, and maybe we ought to have a Subcommittee 
meeting or CODEL that goes down there and looks it over. That 
may not be a bad idea.
    Mr. Leary. We would welcome you, however it is you would 
care to visit.
    Mr. Hansen. Very kind of you. We appreciate it and thank 
you, gentlemen.
    Our next panel is composed of Mr. Dexter Lehtinen, Thomas 
A. MacVicar, Dr. Ronald D. Jones and Colonel Terry Rice, 
Retired, if those gentlemen would like to come up, please.
    Gentlemen, we are going to run out of time, and we spent 
quite a bit of time with these first two gentlemen, and I 
apologize, but we had a lot of things we wanted to know. So, if 
it is not terribly inconvenient for you, we would like to 
follow the clock a little close if we could.
    You see it there in front of you. It is just like when you 
are driving your car. It is a traffic light: green, you start; 
yellow, you start wrapping up; and red, you stop. So if you 
just feel that there is no question that you have got to have a 
minute or two more, go ahead, but we would appreciate if you 
could stay as close as you could.
    Colonel Rice, we will start with you and go across. Is that 
all right?
    Colonel Rice. That is fine.
    Mr. Hansen. You have the floor, sir

STATEMENT OF COLONEL TERRY L. RICE, U.S. ARMY RETIRED, FLORIDA 
  INTERNATIONAL UNIVERSITY, AND ADVISOR, MICCOSUKEE TRIBE OF 
                       INDIANS OF FLORIDA

    Colonel Rice. Yes, sir. Mr. Chairman, Committee members, I 
am Colonel Terry Rice, and I have been a public servant for 
over 30 years now. In February of 1998, I retired from the 
Corps of Engineers after being an officer for that entire 
period, working around the world, grappling with some pretty 
tough challenges.
    My last assignment in the Corps of Engineers was with the 
Jacksonville district, where I had oversight responsibility for 
Florida, Puerto Rico and the Virgin Islands, and my major 
priority, my major focus during that assignment was Everglades 
restoration. It consumed about 50 percent of my time because of 
the priority it had.
    Once I retired, I decided to continue my efforts in 
Everglades restoration, and to do that, I took a position at 
Florida International University as a research scientist. I do 
have a Ph.D. in hydrology, so it gives me a little knowledge of 
the water and things that happen in the Everglades--water is 
what restoration is about--and I also advise different people 
in environmental matters in south Florida, to include the 
Miccosukee Tribe of Indians.
    I think that the Everglades restoration is very important 
for all of us. I think it has far more meaning than what meets 
the eye, and I just think it is important to be involved in, 
and that is what I am dedicated to.
    When I came into the Jacksonville district back in 1994 it 
quickly became apparent to me that this Modified Water Delivery 
Project was a strategic imperative as far as winning this war 
to save the Everglades. There was no doubt in my mind that if 
we didn't find some way to move through this quickly, we were 
going to do undue harm to the entire system.
    It is not just a matter of putting that water into Shark 
River Slough as you directed be done. It also is putting water 
into the western part of Florida Bay, which is very important. 
It also relieves many areas to the north. You have the water 
conservation areas where the tribe practice their culture which 
had been destroyed over the years. Lake Okeechobee is being 
destroyed, a lot of the estuaries are receiving fresh water, 
that shouldn't be receiving it, because of this; and it is 
driving tourists home. It is destroying the economy of the 
area.
    So it has impacts throughout the entire system, and that 
was very apparent; and when I started looking at the project, 
embedded within was the turning point of the whole war: how do 
you get by this 8-1/2 Square Mile Area that everybody wants to 
fight over all the time.
    And we had a plan submitted to Congress in 1992, which 
would solve that problem--that was very clear. Once you build 
that project you can put the water in Shark River Slough and 
get rid of all this damage that has been created over the 
years.
    So you have heard by earlier testimony, that in 1996 I 
declined to sign a statement of principles. The reason I 
declined to sign that statement of principles was because they 
could not explain to me how we were going to get through all of 
these issues that we had to get through to do something other 
than the Corps plan. I could not see a way through that, and 
nobody was addressing all this Pandora's box of issues that 
were going to be unleashed--increased budgets, more 
environmental problems, and congressional approvals--all those 
kinds of things. I was very concerned.
    So I basically sat back and watched them go through the 
process of grappling with finding another alternative, and this 
basically has gone on since 1992--7 years. Progress; we have 
had no substantial progress in implementing the 1989 Act when 
it comes to modified water deliveries since 1992. It has been 
essentially dormant.
    I watch these agencies do this over the years, and then 
finally it came to a head. There was a decision reached last 
year on November the 12th, 1998, and that decision essentially 
was to buy out the area and, to me, that was an extremely bad 
decision. It was a decision that was ill-advised, 
unimplementable, and I think, as the chairman said, we are 
going to be pushing up daisies before it is implemented. This 
concerned me very greatly.
    And of course, South Florida Water Management District had 
a big role in that, Miami-Dade County had a big role in that, 
but what you look at here is the Department of Interior's role 
and they made a commitment that day at that board meeting. It 
was based on a letter sent by Secretary Babbitt to the 
superintendent of Everglades National Park, Dick Ring, who was 
just here, that basically committed 50 percent of the money to 
buy the entire area.
    I am absolutely convinced that that board would never have 
made that decision to buy out the area unless that commitment 
was made, and they understood it as a commitment. If you go to 
south Florida today, they think the money is in the bank. That 
is why they made that decision. And unfortunately, that 
decision was not only a bad decision and a bad commitment in my 
mind, but it also defied the laws of Congress, and let me just 
explain a little bit of what I mean.
    Number one is, it changed the 1989 Act. You said protect 
it, they decided to buy it out. There was no amendment; there 
was no action taken to change that. They committed $60 million 
when the Corps of Engineers still stands by, and I checked last 
week, that the $40 million project will solve or satisfy the 
Federal interest.
    They committed 50 percent--we have already been through 
that--when the law clearly says 25 percent. They did not go 
through NEPA before they did that. If you ask here, Mr. Leary 
says that they are doing NEPA. Well, down in south Florida, it 
is committed. They think it is a done deal, even though the 
NEPA process is going to take a long time.
    They did not go through the process of consulting with the 
South Florida Ecosystem Restoration Task Force, which Congress 
established to coordinate these kinds of things. They did not 
coordinate one iota with that group before they made that 
decision.
    And lastly, they did not consult with Miccosukee Tribe of 
Indians, which has a vested interest in seeing this project 
accomplished as fast as possible.
    So all those things, I think, are indications of some 
things that allowed that decision to be made. A decision which 
is going to hold things up.
    So, in summary, I think it is bad. Obviously, that is my 
opinion. We have something here that is bad for progress. We 
need progress. We talk about the $11 billion that is maybe 
coming down the road. We need to show some progress in what we 
already have authorized.
    We also are wasting taxpayers' money in my mind. We are 
also destroying natural resources that shouldn't be destroyed. 
Some of these are not resilient. They are not going to come 
back. But worst of all, we are needlessly removing 432 homes 
from an area when it doesn't have to be done, and it is being 
done in the name of Everglades restoration; and I think that is 
totally intolerable and should be stopped.
    I think that what you have here is a situation where people 
need to be held accountable. Accountability, I think, is the 
word of the day. If we don't hold people accountable, we are 
never going to get through this whole restoration process, 
which is going to go on for 40 years. We have to hold people 
accountable, people and agencies, and until we do that, we are 
going to continue to hear the excuses that we hear. We are 
going to see the process continue to go on and we are not going 
to have progress like we know we need.
    And so I think, in a nutshell, it boils down to figuring 
out how to hold people accountable and getting through all 
these different processes that people want to create.
    Buying out the 8-1/2 Square Mile Area is not necessary for 
Everglades restoration. Not buying out the 8-1/2 Square Mile 
Area is necessary for Everglades restoration as was the wisdom 
of Congress in enacting the law in 1989. What we need to do now 
is hold people accountable and get it done.
    Thank you.
    Mr. Hansen. Thank you, Colonel.
    [The prepared statement of Colonel Rice follows:]
    [GRAPHIC] [TIFF OMITTED] T7272.003
    
    [GRAPHIC] [TIFF OMITTED] T7272.004
    
    [GRAPHIC] [TIFF OMITTED] T7272.005
    
    [GRAPHIC] [TIFF OMITTED] T7272.006
    
    [GRAPHIC] [TIFF OMITTED] T7272.007
    
    [GRAPHIC] [TIFF OMITTED] T7272.008
    
    [GRAPHIC] [TIFF OMITTED] T7272.009
    
    [GRAPHIC] [TIFF OMITTED] T7272.010
    
    [GRAPHIC] [TIFF OMITTED] T7272.011
    
    [Written answers to questions from the Committee.]
    May 21, 1999
    Subject: Everglades Oversight Hearing--April 27, 1999
    To: Committee on Resources, U.S. House of Representatives

    Mr. Hansen did not have time to ask all the questions that 
he intended to ask at the April 27th hearing. Below are written 
responses as promised.
        <bullet> Q. Will the Corps plan work with whatever 
        modifications are appropriate in the detailed design phase? A. 
        Absolutely. I can not imagine a scenario for which the concept 
        documented in the Corps plan will not work.
        <bullet> Q. Is it necessary to condemn or fully acquire the 8.5 
        square mile area for Everglades Restoration? A. Unequivocally 
        NO. As a matter of fact, ``not buying out the area'' is 
        necessary for restoration. Attempting to buyout the area, 
        without a justifiable public purpose, may doom the entire 
        Modified Water Deliveries project and more. We should avoid at 
        all costs unnecessarily removing people from their homes no 
        matter what our endeavor.
        <bullet> Q. Does the 8.5 square mile area block northeast shark 
        river slough? A. Absolutely not. The 8.5 square mile area is on 
        the periphery of the slough on relatively high ground.
        <bullet> Q. What is the affect on lands to the north of Tamiama 
        Trail of delay modified water delivery while some try to 
        condemn the 8.5 square mile area? A. Due to the abnormally high 
        water levels created by the Modified Water Deliveries project 
        not being completed, the Water Conservation Areas, Lake 
        Okeechobee, and much of the estuarine system is being 
        significantly damaged . . . much of this damage is 
        irreversible. Time is of the essence.

    Mr. Hansen. Dr. Jones

  STATEMENT OF RONALD D. JONES, Ph.D, SOUTHEAST ENVIRONMENTAL 
       RESEARCH PROGRAM, FLORIDA INTERNATIONAL UNIVERSITY

    Dr. Jones. Thank you, Mr. Chairman and Committee members. I 
will make it very brief.
    Mr. Hansen. Dr. Jones, can I get you to pull that mike up 
pretty close so we can catch everything you are saying, please.
    Dr. Jones. Sure.
    I am happy to be here. I am a Professor of Biology at 
Florida International University. I am also the Director of the 
Southeast Environmental Research Program at the same 
university. I am on IPA to the United States Army Corps of 
Engineers, where I work as a senior scientist. I advise various 
agencies as to water quality issues, particularly pertaining to 
the Everglades. I have spent the last 14 years working in the 
Florida Everglades. I have served the Federal Government as an 
expert for both the Departments of Justice and Interior on 
water quality issues and other water-related matters. I also 
have testified in Congress before on these particular, almost 
these same issues; and I provide advice to the State of 
Florida, the South Florida Water Management District, the 
Miccosukee Tribe and the Corps of Engineers on these things.
    Your opening statement pretty much covered the areas that I 
was going to go over. So I am just going to briefly hit some of 
the high points.
    My major concern is the fact that the delay in Modified 
Water Delivery and the completion of this C-111 project is 
causing irreversible harm to many portions of the Florida 
Everglades. As far as I am concerned, it is one of the most 
important issues facing the Florida Everglades today, getting 
this Modified Water Project done. The restudy, the effort that 
we are talking about in the future hinges on us having 
completed this portion of the project, consider-
ing that the restudy has taken this as being part of the base 
condition before we can go on forward with that.
    Specifically, I work sort of from the south of the system 
up to the north. I have five particular areas that concern me.
    The first of them are the problems that are associated with 
the elevated salinities in Florida Bay that are directly caused 
by our lack of ability to deliver water to the northeast 
portion of Florida Bay and also to the western boundary of 
Florida Bay, through the Taylor Slough and the Shark River 
Slough systems. Neither of these can be corrected without the 
implementation of the Modified Water program.
    The--one of the--I guess to highlight that, the salinities 
in Florida Bay in 1989 were as high as 70 parts per thousand, 
which is double that of sea water; and areas such as the Taylor 
River, which is particularly supposed to be a fresh water, or a 
low salinity river, had salinities of 45 parts per thousand, 
which is 28 percent higher than sea water.
    Some very dramatic problems are occurring in Florida Bay. 
These are not going to be reversed without the Modified Water 
Delivery program being put in place.
    Everglades National Park, when it was established, the 
boundary was at--northern boundary of it is basically U.S. 
Highway 41. The eastern boundary of it was the L-67 extended 
canal. The Shark River Slough--very, very small portion of 
that--was included into Everglades National Park along this 
boundary. Most of it was outside of the park to the east.
    The water that has been delivered traditionally into 
Everglades National Park has been delivered into an area that 
was short hydroperiod wetlands. We have now flooded that area, 
causing extensive environmental changes, and we are trying now 
to restore that by putting water to the eastern flow section, 
and that is, in fact, Modified Water Delivery. Until we do 
that, Everglades National Park and the Shark River Slough are 
going to continue to suffer dramatic damages.
    Another thing that comes to effect is, we move up into the 
8-1/2 Square Mile Area and the only portion of that I will 
directly address is, in 1990 I was requested by Everglades 
National Park and the United States Army Corps of Engineers to 
evaluate the potential impact of the 8-1/2 Square Mile Area 
flood mitigation project on its water quality. After extensive 
research in the design sources of water that would be returned 
to the Everglades National Park and along with evaluating the 
phosphorous retention of the buffer strip that was included in 
this project, I came to the conclusion and advised both the 
park and the United States Army Corps of Engineers that there 
was not going to be a water quality problem associated with the 
project as envisioned.
    Currently, the buyout now being the locally preferred 
option, I do not have the same beliefs. I have--although they 
have not done the studies for that, my professional opinion 
right now is that there could be significant water quality 
problems associated with the purchase of the 8-1/2 Square Mile 
Area that are not being addressed, and they are just assuming 
that buying the area and flooding it will not have any water 
quality impacts. I do not believe that to be the case. It does, 
however, need to be examined carefully.
    Another--fourth point is that because of the inability to 
deliver water south in the system, destructive flooding is 
occurring in Water Conservation Area 3A, which is property of 
the State and leased to the Miccosukee Tribe of Indians. These 
high levels have caused much damage to the mosaic of the 
communities out there, and they have caused tremendous damage 
to the tree islands. And in many cases, the tree islands are so 
destroyed that they will not be able to be rehabited without 
massive replantings and, in some cases, going out there and 
actually raising the elevation of the soil so that we can have 
this habitat restored.
    Final concern is with the fact that we have--without being 
able to release water south through the system, we have water 
levels in Lake Okeechobee being held unnaturally high, and we 
also have massive fresh water releases going to the coastal 
estuaries which have caused tremendous damage, particularly in 
the Caloosahatchee and the Saint Lucie estuaries.
    Finally, I would just in conclusion say that continued 
delays in the implementation of the Modified Water Delivery 
Project will result in continued and potentially irreversible 
damage to the entire Everglades system, including Everglades 
National Park. This delay has profound implications directly 
affecting the plans for restoration of the Florida Everglades 
and the associated ecosystems.
    Congress should do everything and anything within its power 
to ensure that the Modified Water Delivery Project is 
implemented and completed without further delay.
    Thank you.
    Mr. Hansen. Thank you, Dr. Jones. We appreciate your 
comments.
    [The prepared statement of Dr. Jones follows:]

   Statement of Dr. Ronald D. Jones, Ph.D., Director and Professor, 
 Southeast Environmental Research Center and Department of Biological 
      Sciences, Florida International University, University Park

    I am a full Professor of Biology and the Director of the 
Southeast Environmental Research Center at Florida 
International University. In addition I am currently on an IPA 
from the State of Florida as a Senior Scientist to the United 
States Army Corps of Engineers, Jacksonville District. I have a 
Ph.D. in microbiology from Oregon State University and have 
spent the last 14 years working in the Florida Everglades.
    My education, experience and research work qualify me as a 
water quality expert, including water quality in wetland 
systems, with special emphasis on oligotrophic (low nutrient) 
systems such as the Florida Everglades. In addition I am an 
expert in general Everglades ecology and Everglades water 
related issues in general. I have been qualified in Federal and 
state court and testified as an expert in these areas and 
related matters.
    I have served as a Federal Government expert (Departments 
of Justice and Interior) on Everglades water quality and other 
water related issues since 1988 and have testified before the 
United States Congress on these issues. In addition I also 
provide expert assistance to the State of Florida, the South 
Florida Water Management District, the United States Army Corps 
of Engineers and the Miccosukee Tribe of Indians of Florida on 
Everglades ecology and water related issues.

Introduction

    It is my professional opinion that the implementation of 
the Modified Water Delivery Project (MWD) along with the 
completion of the C-111/Taylor Slough modifications currently 
under construction are the most important and critical 
components of Everglades restoration. Without MWID, not only 
does the northeast Shark River Slough in Everglades National 
Park (ENP), continue to unnaturally dry out, but the Everglades 
to the north of ENP in Water Conservation Area 3A (WCA-3A) are 
being unnaturally flooded, thus destroying wildlife (including 
endangered and threatened species), tree islands and other 
critical habitat. Water that historically flowed through Shark 
River Slough is now being shunted unnaturally to the estuaries 
to the north causing imbalances that that adversely affect 
water quality and the ecology of these systems. Lake Okeechobee 
is kept at elevated levels for prolonged periods of time, which 
adversely affects the remaining littoral zone, which is vital 
to its ecology and health. The natural system, which includes 
the freshwater Everglades, Lake Okeechobee, Florida Bay, the 
coastal estuaries and the nearshore waters of the Southwest 
Florida Shelf, is suffering severe damage because of the 
failure to implement the Modified Water Delivery Project. The 
longer we wait to implement MWD, the less the likelihood is 
that we can preserve and protect the Everglades and its 
associated ecosystems. Delay is the biggest threat to the 
Everglades.

Specific Points

    Working from south to north the following five water 
quality and ecology issues are of specific concern:

1. Elevated salinities in Florida Bay.

    In 1989 Florida Bay experienced salinities as high as 70 
parts per thousand (ppt), which are over twice the salinity of 
seawater. It is the belief of most scientists and my opinion 
that these unnaturally elevated salinities triggered a massive 
seagrass die-off in Florida Bay from which it has not yet 
recovered. In addition to exceedingly high central Bay 
salinities, traditionally freshwater to low salinity areas such 
as Taylor River also experienced salinities that would not be 
expected under natural conditions. For over one year Taylor 
River had salinities continuously in excess of 30 ppt and as 
high as 45 ppt (28 percent higher than full strength seawater). 
These conditions resulted in massive negative impacts in the 
northeast portion of Florida Bay along with extensive 
persistent algal blooms in the central and western portions of 
the Bay. The delays in implementing MWID has been in large part 
responsible for the inability of managers to control salinities 
in Florida Bay and moderate the effects of development within 
the watershed that decrease freshwater flows to the Bay.

2. Hydroperiod restoration of the Northeast Shark River Slough.

    When Everglades National Park was established, the northern 
boundary (U.S. Highway 41) did not include the historic major 
water flow way, Shark River Slough. Water delivery structures 
were constructed that delivered water to areas to the west that 
only included a small portion of the historic Shark River 
Slough. This resulted in unnatural flooding of short hydro 
period areas and drying out of large portions of the Northeast 
Shark River Slough not included in ENP. The Everglades National 
Park Protection and Expansion Act of 1989 included the purchase 
of this area with the intent of rehydrating and restoration of 
this area. Although the initial rehydration of this area had 
dramatic positive effects on this area, both in reducing the 
flooding in the areas west of the Shark River Slough and the 
establishment of peat forming communities in the Northeast 
Shark River Slough, ecological restoration has essentially been 
halted due to the failure to implement MWID.

3. Water quality issues associated with the 8.5 Square Mile 
Area.

    In 1990 I was requested by Everglades National Park and the 
United States Army Corps of Engineers to evaluate the potential 
impacts of the 8.5 Square Mile Area and the flood mitigation 
project for water quality impacts to ENP. After extensive 
research into the design, sources of water being returned to 
ENP, along with evaluation of the phosphorus retention 
capabilities of the soils and biological communities within the 
project buffer strip, I concluded that there would not be a 
water quality impact to the Park with the implementation of the 
Corps' plan for the 8.5 SMA. Although a similar evaluation of 
the current plan to buyout the 8.5 SMA has not been conducted, 
it is my professional opinion that serious water quality 
impacts could result from the implementation of this option 
that were not possible under the Congressionally authorized MWD 
Project. This needs to be carefully evaluated as nutrient 
pollution and eutrophication is the major long-term 
irreversible threat to ENP and the Everglades in general.

4. Destructive flooding of Water Conservation Area 3A.

    Because water cannot be moved south through ENP until the 
completion of MWD, long-term and persistent flooding of Water 
Conservation Area 3A has occurred. This flooding has resulted 
in massive changes in the marsh vegetation patterns, tree 
island destruction and negative impacts on the wildlife, 
including endangered and threatened species. In addition WCA-3A 
contains critical habitat that is being destroyed and will 
continue to be destroyed or degraded until MWD is completed. Of 
particular importance is the fact that although the marsh 
vegetation patterns will reestablish themselves given a 
reasonable period of time, the tropical hardwood hammocks (tree 
islands) will not be restored in a reasonable time period 
without a massive replanting effort and in many cases 
reestablishment of soil surface elevations. Therefore, it is 
extremely important that further destruction be avoided. 
Although these tree islands represent a relatively small 
portion of the habitat, their presence is critical in 
determining the presence of many bird, reptile and mammal 
species found in the Everglades. Although we all acknowledge 
the importance of Everglades National Park, there is no excuse 
for ignoring the equal importance of the Water Conservation 
Areas. This is especially critical since implementation of MWD 
is of equal importance to the preservation and restoration of 
the entire Everglades system including ENP.

5. Water levels in Lake Okeechobee and freshwater releases to 
the coastal estuaries.

    Although not as directly linked to MWD, the inability to 
move water along its natural north to south path results in 
elevated levels of water in Lake Okeechobee and the release of 
excessive amounts of water to the coastal estuaries. This has 
resulted in negative impacts to the littoral zone of the Lake. 
The unnatural release of water to the coastal estuaries has 
resulted in massive fish and shellfish kills, algal blooms and 
sedimentation. All conditions that are unacceptable and need to 
be stopped immediately. These freshwater releases have problems 
associated with both quantity and timing in addition to water 
quality.

Conclusions and Recommendation

    In conclusion, continued delays in the implementation of 
the Modified Water Delivery Project will result in continued 
and potentially irreversible damage to the entire Everglades 
system including Everglades National Park. This delay has 
profound implications directly affecting the plans for 
restoration of the Florida Everglades and the associated 
ecosystems. Congress should do anything and everything within 
its power to ensure that the Modified Water Delivery Project is 
implemented and completed without any further delay.

    Mr. Hansen. Mr. Thomas K. MacVicar, you have got the floor, 
sir.

 STATEMENT OF THOMAS K. MACVICAR, P.E., PRESIDENT, FEDERICO & 
                           LAMB, INC.

    Mr. MacVicar. Thank you, Mr. Chairman, members of the 
Committee. My name is Tom MacVicar. I am a registered 
Professional Engineer in south Florida, today representing the 
Dade County Farm Bureau, which is an organization that--rural 
organization representing the $1 billion agricultural industry 
just east of Everglades National Park.
    I think I may be the only person in the room today who was 
at the meeting in 1989 of this same Committee, then chaired by 
Representative Vento, when the 1989 Act was heard. At that time 
I was an employee of the South Florida Water Management 
District, and we had just completed a 10-year deliberate, 
inclusive, very public process dealing with the issues 
associated with restoring the Everglades National Park, 
protecting the east Everglades, dealing with property rights 
and other issues.
    Farmers participated; every State, local and Federal agency 
within the jurisdiction participated; landowners, residents and 
environmental groups participated.
    We had to deal with a national park boundary that made no 
environmental sense, a Federal water control project that did 
more harm than good in many cases to the park. We had difficult 
property rights issues, and we had difficult secondary impact 
issues, but the community came together as a community.
    We reached consensus behind the plan that was embodied in 
the 1989 Act. It was a tremendous victory for Florida's 
Everglades, a tremendous step forward for the State of Florida, 
and was really the first concrete example of the State working 
together with Congress to restore the ecosystem. It predated 
congressional action on the restudy and the Kissimmee 
restoration by 3 years.
    It was also a great affirmation for me personally that the 
process worked. We had good scientists from every agency 
working together. That fostered good policy by the leaders in 
Florida, and it ended up with a good solution, which was the 
Modified Water Delivery Project in combination with the 
acquisition of Everglades National Park.
    What has happened in the 10 years since then has not been 
nearly as positive a process, and I would like at this point to 
comment on a few of the statements made by the first panel 
because the Florida Bay issue came to a head shortly after this 
Act was passed and shortly after the plan was produced by the 
Corps and caused a lot of confusion, basically caused the 
abandonment of the scientific approach to the issue, and it 
drove a lot of government process.
    The 1994 Act that has been talked about here today was 
really a way to deal with another Corps project--Corps park 
project, the C-111 project, which is south of Modified Water 
Delivery. That is a project that recommended, without Congress 
ever reviewing the plan, that 10,000 acres of our most 
productive farmland be bought by the government and converted 
to wetlands.
    The 1994 Act was a way to try and get Federal money into 
the acquisition of the Frog Pond and the Rocky Glades, which 
are in the C-111 project; it was not a way to get Federal money 
into the 8-1/2 Square Mile project until the very end when that 
component was added. And as we heard today, although the water 
management district has spent well over $100 million on the 
Frog Pond and the Rocky Glades, the Department of Interior has 
yet to contribute its first dime to matching those 
acquisitions.
    I would like to finish up with a--one of the points, this 
idea of flood mitigation. I apologize for the wandering, but 
the 1989 Act did not invent the term ``flood mitigation.'' It 
said flood protection. When the Corps, at the public meetings 
in Florida, in front of the community, talked about this plan, 
it was a flood protection plan that was designed to provide a 
1-in-10-year flood protection to the area.
    Flood mitigation is an idea that the Federal agencies had 
to come up with after the Act was passed because this looked 
like a water project that didn't go through the normal water 
project process. It did not have a cost-benefit ratio. It was 
not funded through the water resource development program. The 
way that was defined by the people in the Corps and Interior at 
the time, completely separate from the interactions with the 
local sponsor, was to call it ``mitigation.''
    Recent modeling performed by our firm for the water 
management district shows that it does provide the same level 
of flood protection as the lands just east of the levee. Flood 
mitigation is a rhetorical concept. It is not a flood 
protection concept. It is not an engineering concept, and I 
don't think it is valid the way it is being used in this 
instance.
    In terms of recommendations, construction of the Modified 
Water Delivery Project is essential to the protection and 
restoration of Everglades National Park. I think it is a 
scandal that here we are with the park that is always referred 
to as the most endangered unit in the system 10 years after 
this plan was approved by Congress. We have no meaningful 
action to put it in place. This is the single most important 
project for the park, and it is not being built.
    The flood protection system around the 8-1/2 Square Mile 
Area is not in conflict with Everglades restoration. It is not 
in conflict with the protection of the park, and it should be 
built to move this project forward.
    I would like to reassure you that the action this Committee 
took in 1989 is still valid today. This plan is still the best 
plan to move forward with for the Everglades, and by doing so, 
you will not foreclose any further options of restoration, you 
will not build an impediment to restoration, and you will do 
more than anyone has done in the last 20 years to move 
protection of Everglades National Park forward.
    Thank you for your time.
    Mr. Hansen. Thank you, sir.
    [The prepared statement of Mr. MacVicar follows:]
    [GRAPHIC] [TIFF OMITTED] T7272.012
    
    [GRAPHIC] [TIFF OMITTED] T7272.013
    
    [GRAPHIC] [TIFF OMITTED] T7272.014
    
    [GRAPHIC] [TIFF OMITTED] T7272.015
    
    [GRAPHIC] [TIFF OMITTED] T7272.016
    
    [GRAPHIC] [TIFF OMITTED] T7272.017
    
    [GRAPHIC] [TIFF OMITTED] T7272.018
    
    [GRAPHIC] [TIFF OMITTED] T7272.019
    
    [GRAPHIC] [TIFF OMITTED] T7272.020
    
    [GRAPHIC] [TIFF OMITTED] T7272.021
    
    [GRAPHIC] [TIFF OMITTED] T7272.022
    
    [GRAPHIC] [TIFF OMITTED] T7272.023
    
    [GRAPHIC] [TIFF OMITTED] T7272.024
    
    [GRAPHIC] [TIFF OMITTED] T7272.025
    
    [GRAPHIC] [TIFF OMITTED] T7272.026
    
    [GRAPHIC] [TIFF OMITTED] T7272.027
    
    [GRAPHIC] [TIFF OMITTED] T7272.028
    
    [GRAPHIC] [TIFF OMITTED] T7272.029
    
    [GRAPHIC] [TIFF OMITTED] T7272.030
    
    [GRAPHIC] [TIFF OMITTED] T7272.031
    
    Mr. Hansen. Mr. Lehtinen

STATEMENT OF DEXTER LEHTINEN, ESQ., LEHTINEN, O'DONNELL, VARGAS 
  & REINER, P.S., REPRESENTING MICCOSUKEE TRIBE OF INDIANS OF 
                            FLORIDA

    Mr. Lehtinen. Yes. My name is Dexter Lehtinen, and I 
represent the Miccosukee Tribe. I have also been a Florida 
State representative, State senator, the United States attorney 
and did testify in those 1993 hearings in the Keys that 
Delegate Romero-Barcelo spoke of.
    Most of my statement has been covered with your statement 
and questions. So let me just reemphasize.
    The delay backs water up and destroys tribal lands. The 8-
1/2 Square Mile Area does not have water flow over it under any 
circumstances. It is only prone to flooding just the way all of 
Dade County where I grew up is, and that is that if the water 
table under the ground is higher, then your rainwater doesn't 
soak in as fast.
    This area is not in the slough. Therefore, the Miccosukee 
Tribe think it is inappropriate to pit those residents against 
the tribe and subject them to the same kind of Indian removal 
policies, so to speak, when the land is high enough and it is 
really a question of just water flowing off.
    Let me reemphasize, the Corps has done its job past NEPA 
and EIS; and also--the kind of bait-and-switch, willing-seller 
logic that is used is shown also in the Mack-Graham letter. 
Senator Mack's letter that was mentioned earlier says he 
supports buying from willing sellers, and Senator Mack told me 
personally after he signed that letter that he absolutely does 
not support condemnation of these people. The first paragraph 
says ``willing seller'' in the Mack-Graham letter.
    Let me just say this. The park has already made up its 
mind. The park said in November 1998 after a secret group that 
violated, we think, the Florida sunshine law, gave a 
recommendation to reverse standing policy and condemn the area. 
Superintendent Ring stood up in front of the meeting in 
November that Colonel Rice referred to and said on behalf of 
Secretary Babbitt, we are prepared to participate in the full 
cost of the acquisition alternative with 50 percent of the 
funding. That was a total surprise to even those of us who 
serve on the South Florida Ecosystem Restoration Task Force.
    Subsequently, the local sponsor said in writing, it is true 
that the acquisition of the 8-1/2 Square Mile Area is not 
necessary for Everglades restoration, but they want to do it as 
a land-use issue.
    Let me just list quickly the reason Congress should be 
concerned with this is, first of all, that these delays cause 
environmental damages.
    Secondly, it is contrary to the 1989 Act.
    Third, it is contrary--and Chairman Hansen has done this, 
so I won't quote--contrary to the 1994 amendment because it 
exceeds the 25 percent spending cap and because it involves a 
Federal Government in condemnation.
    Furthermore, it violates the National Environmental Policy 
Act because they are going directly against the NEPA-EIS plan 
in 1992.
    Furthermore, in 1989 they absolutely committed funds. In 
south Florida, they actually say the money is in the bank. They 
committed funds without a 1998 EIS.
    Furthermore, we think it violates the Water Resources 
Development Act. I serve on the South Florida Ecosystem 
Restoration Task Force that is supposed to coordinate and 
prioritize and give advice on these matters, and I can tell 
you, I first learned of this Interior Department decision when 
I sat in the audience of the South Florida Water Management 
District.
    It furthermore violates the restudy procedures. Let's look 
at this and think about this for a second. It is not in the 
restudy. It would never make it in the restudy. If it was in 
the restudy, it wouldn't be a locally preferred option. It is a 
locally preferred option because the entire rest of the Federal 
Government does not support this procedure.
    Park has gone to the local sponsor for an LPO, and then 
contrary to Corps regulations, where the local sponsor is 
supposed to pay 100 percent of a locally preferred option, they 
want to launder 50 percent Federal money in there and buy out 
that local sponsor to do what Congress wouldn't otherwise do.
    I also think that they should have consulted this Committee 
when they got their declaration of taking on the park expansion 
area because you could have conditioned it.
    And I also think that it is inappropriate and unseemly for 
the Federal Government to be involved in promoting a project 
which has--which neither the State nor the Federal Government 
has imminent domain authority for. The State legislature will 
not give imminent domain authority. Chairman Hansen is right; 
it does not have it today.
    Water Management has frequently testified to the State 
legislature that it does not have imminent domain authority for 
restoration. It has sought it. Mr. Leary went to the State 
legislature 3 weeks ago and asked them to put imminent domain 
authority for this project condemning the 8-1/2 in the State 
legislation. By this Friday when the legislature ends, it will 
not have put it in, and I am quite sure.
    My recommendations briefly are as follows. With regard to 
Modified Water Delivery--no, let me add. The Chairman handled 
the farm bill issue, but I just think it is clear. The farm 
bill creates no additional authority and doesn't repeal any 
existing law. As a matter of fact, those of us who helped 
prioritize farm bill money never had condemning the 8-1/2 even 
discussed with us, as a matter of fact.
    Regarding Mod Water Delivery, I would recommend that the 
Committee assert its authority with regard the declaration of 
taking in the east Everglades National Park expansion area and 
condition that declaration of taking on full compliance with 
the law everywhere else, including not using any Federal funds 
to do anything to condemn in the 8-1/2.
    I would recommend that Corps--that funding be shifted from 
the Interior Department to the Corps because despite the fact 
that they said they didn't have a veto, in response to the 
Congressman's question, the fact of the matter is, Dick Ring 
has written in letters to the Corps that he will not fund the 
Corps project, and the chief engineer says to me he cannot get 
any money from the Department of Interior.
    I would also hope the Committee could direct the Corps to 
do detailed planning, any modifications that are necessary on 
additional information under the 1992 proposal, but that 
planning not include what is essentially an illegal 
alternative, that is, condemning the 8-1/2 Square Mile Area.
    Right now, the Corps, as a political matter out of 
Washington, does not want to tell the district, even though 
many in the district would like to just be told by the Corps, 
that, look, it is an illegal proposal that we made, so forget 
it.
    Two other items just briefly: I think that the Interior 
Department should be reduced in restoration to nothing more 
than a landowner because they act as a landowner. It would be 
wise for the South Florida Ecosystem Task Force to be chaired 
by the Corps of Engineers, and I don't think funding like farm 
bill money ought to go through the Secretary of Interior.
    I think that the Corps has done everything to keep the 1989 
promise. And I just hope that this Committee can induce the 
other agencies to keep their promise as well. Thank you.
    Mr. Hansen. Thank you very much. Any other comments? No, I 
am not going to give you another chance.
    But let me turn to the gentleman from Nevada. I appreciate 
your testimony from all four of you gentleman. It was very 
good.
    Mr. Gibbons. Thank you very much, Mr. Chairman. And I just 
have one brief question for Mr. Lehtinen.
    Mr. Lehtinen, you are an attorney obviously. And on March 
18th, 1999, the South Florida Water Management District sent a 
letter out, and I will quote. Its subject was a 90-day letter 
of assurance. I will quote the first paragraph: ``The South 
Florida Water Management District, `District,' is in the 
process of providing relocation services for the 8-1/2 Square 
Mile Area Project. To carry out our plans for the 8-1/2 Square 
Mile Area, it will be necessary for you to move.''
    That is part of that first statement. Do you believe that 
that statement gives the impression to the people in the 8-1/2 
Square Mile Area that it is mandatory that they sell their 
property to the district?
    Mr. Lehtinen. It absolutely does give them that impression. 
And further memos that went out earlier that have the same tone 
and tenor, saying that we will acquire the area, that if you 
don't become a willing seller now when there is a considerable 
amount of money, you will be later condemned, the governing 
board can vote to condemn you.
    All those have produced an atmosphere where these people 
think they will be condemned, and they believe they have to 
move quickly or they will be the last people on the totem pole. 
I should confess that I am an attorney, and this was not 
planned before, but after the governing board of the Water 
Management District directed the Inspector General of the 
district to investigate coercive--possible coercive tactics, 
which was really an allegation I made at the last governing 
board meeting, some members of--homeowners have come to me; and 
I believe next week--I only say this because I don't want to 
mislead you--that we will probably be filing some fraud in the 
inducement lawsuits based on the fact that there are many 
people who say I never would have sold if I didn't think they 
could condemn me.
    They absolutely are not told what the Water Management 
District tells the legislature. They have testified to the 
legislature that we cannot condemn that area unless you give us 
authority. And at the same time, they tell the residents that 
they are going to be condemned.
    Mr. Gibbons. Do you think that this letter is consistent 
with the testimony of the two gentlemen that were here from the 
Park Service earlier, that you were listening and privy to, 
where their statements state that this acquisition is not yet 
predetermined?
    Mr. Lehtinen. I think the fact is that it is predetermined. 
For reasons that I have said earlier, it is predetermined 
because the staff of the Water Management District says that to 
the residents. And the idea on the part of these staff people 
is that, if they can get--coerce enough people into selling 
that their plan was that the State legislature or the Federal 
Government would, years later, upon seeing a lot of land has 
already been bought, that the legislature would be coerced, 
would essentially say it is a sunk cost. We have got no choice 
but to go ahead and condemn. Maybe it is not a good idea, but 
we have already acquired half of it from so-called ``willing 
sellers,'' so let us condemn the rest. It is really an abusive 
or illegal--improper tactic.
    Mr. Gibbons. Despite the fact that it is an ongoing NEPA 
study, which would include the acquisition or the construction 
of a levee and a seepage drainage ditch, there is a back-room 
agreement or some conclusion that the actual result will be 
acquisition rather than a levee construction.
    Mr. Lehtinen. I mean, absolutely, the Department of 
Interior has made the decision. They make it clear that they 
have made the decision everywhere except in Congress and when 
we sue them in court. In court, their defense will be, well, 
the letter--we said we were committing the money, but we really 
meant we are going to study committing the money.
    They do know NEPA. They knew NEPA well enough to walk out 
of a meeting after they commit money, look at me and say, well, 
you know, if you sue us under NEPA, we are going to say we 
really haven't made the decision. I mean, literally say that to 
me; I don't mean figuratively, I mean literally.
    They say I will lose the NEPA lawsuit because they will 
swear they never made a decision, even though, in south 
Florida, it is as made as strong as you can make it. And 
Superintendent Ring's statement to the governing board had no 
qualifiers; it said, we have committed the money.
    Mr. Gibbons. Mr. Chairman, I thank you for the opportunity. 
I find the testimony of these folks very enlightening in 
comparison to the bureaucratic answers we received by the first 
two witnesses.
    Thank you, Mr. Chairman.
    Mr. Hansen. I thank the gentleman from Nevada.
    The gentleman from Tennessee, Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman, and I don't really 
have any questions. I would say, Mr. Gibbons described the 
testimony as enlightening, and it was, but it was also sad 
because it is another example--particularly the testimony of 
Mr. Lehtinen is another example of what we hear day after day 
after day after day up here of Federal bureaucratic arrogance.
    And people all over this country are getting so disgusted 
and so fed up because they feel that we are ending up or we 
already have a government that is ``of, by, and for the 
bureaucrats'' instead of ``of, by and for the people.'' I think 
you are going to see some changes before long.
    Thank you, Mr. Chairman.
    Mr. Hansen. Thank you, Mr. Duncan.
    I have about a dozen questions for each one of you, but I 
am also realistic enough to know we have got to be out of this 
room in a little while, and we have got another panel coming 
up. So can I submit these to you and get an answer, because I 
see some real talent sitting here, and I would sure like to 
have some answers to this if I could.
    So with that, we will submit these questions to you, and we 
will move on to the final panel if that is all right.
    [The information may be found at the end of the hearing.]
    Mr. Hansen. The final panel is Joette Lorion, the Honorable 
Steve Shiver--am I pronouncing that right--Shiver, and Ibel 
Aguilera. And I probably fouled that up all over the place. Do 
your best with my poor pronunciation of your name, would you?
    Ms. Lorion. It was very close.
    Mr. Hansen. Our first one is Joette Lorion. Is that how you 
pronounce that, Lorion?
    Ms. Lorion. Yes, sir.
    Mr. Hansen. One out of three, that is not too bad.

     STATEMENTS OF JOETTE LORION, ENVIRONMENTAL CONSULTANT

    Mr. Hansen. You know the rules. We will turn the time over 
to you, and you watch the clock and do your best, okay?
    Ms. Lorion. Thank you.
    ``Where after all do universal human rights begin? In small 
places close to home--so close and so small that they cannot be 
seen on any map of the world. Unless these rights have meaning 
there, they have little meaning anywhere.'' And that is Eleanor 
Roosevelt, March 27, 1958.
    My name is Joette Lorion. I am an environmentalist. I have 
worked on environmental issues in Canada and the United States 
for 30 years. Almost 10 of those years have been spent working 
on the Florida Everglades. I was considered a strong 
environmentalist.
    I love the Florida Everglades. I have given countless 
volunteer hours to the battle to protect and restore the 
priceless Everglade ecosystem. I served nearly 9 years as a 
volunteer vice president, president, and conservation chair of 
Friends of the Everglades, the group founded by pioneer 
conservationist Marjory Stoneman Douglas, who reminded us in 
her book ``The Everglades: River of Grass,'' there are no other 
Everglades in the world.
    Another of Mrs. Douglas' messages I took to heart was her 
constant emphasis that the greater Everglades ecosystem needs 
to be preserved and restored in its entirety. I firmly believe 
that to save the priceless park at the end of the system, we 
must save the Everglades to the north, including the water 
conservation areas, Lake Okeechobee and the Kissimmee.
    Congress recognized long ago the Everglades are dying. So 
did Congressman Dante B. Fascell, a friend of mine and a true 
friend of the Everglades. He was instrumental in the passage of 
the Everglades National Park Expansion Act that you spoke of 
today. He fashioned one of his greatest compromises in 1989 by 
providing for the restoration of flows to the park while 
instructing the Army Corps of Engineers to protect a rural 
residential area called the Re because he knew we couldn't 
remove those people from that land; and at that time, they 
didn't think they needed to.
    I don't know exactly why the agencies didn't follow the 
intent of Congress, but I do know the results of their 
inaction. I have observed the serious flooding damage the 
failure to restore natural flows has inflicted on the beautiful 
River of Grass to the north of the park.
    The Miccosukee Tribe's Everglades River of Grass has become 
a River of Death. The Tribe estimates that 85 percent of the 
white tailed deer population has been destroyed. Century old 
trees that hold together the tree islands, an integral part of 
the Tribal culture and religious customs have been destroyed. 
It saddens me when I hear Chairman Cypress say, ``The 
Everglades is our mother, and she is dying.'' It saddens me 
when Tribal elders speak of the multitudes of birds that once 
existed but no longer do, or when a younger tribal member shows 
me rotted tree limbs and speaks about the spirit of his 
ancestors and how the killing of these trees is like cutting 
off his limbs. I am an advisor also to the Tribe, and I speak 
with them often.
    It saddens me when Wayne Nelson, a fisherman who has fought 
valiantly for Lake Okeechobee much of his life, tells me the 
Great Lake is near death. It saddens me when I hear tales of 
water shot out the estuaries killing fish and destroying the 
livelihood of the fisherman.
    Why, I ask myself, are we struggling to unnecessarily 
remove people from the 8-1/2 Square Mile Area that Congress 
said to protect, rather than moving forward with the project 
that is vital to the survival of the entire Everglades and 
vital to preserving Everglades National Park that belongs to 
all we Americans?
    Perhaps the answer is that others like myself could not see 
the forest for the trees. I, like many environmentalists, 
believed the myth that it was necessary to remove these people 
from their homes to restore the flows. I, like many 
environmentalists, believed that these people lived in illegal 
shacks without permits. I, like many environmentalists, were 
probably told the tale that 65 to 85 percent of them are 
willing sellers.
    After many calls from a resident of the 8-1/2 Square Mile 
Area, Madeleine Fortin, I researched the issue for myself and 
visited the area which I had never visited. I found lovely 
rural communities

spotted with farms, nurseries, and many beautiful homes that 
look like they came out of ``House and Garden'' magazine.
    I attended a public meeting and saw hundreds of very 
unwilling and very angry residents. Property owners showed me 
legal building permits. And I later discovered that the 8-1/2 
Square Mile Area had even been exempted from a flood ordinance, 
that I had been told it was stamped on the back of their deeds 
they know they are in an area that floods.
    I later saw a map that showed the 8-1/2 Square Mile Area is 
not in Shark River Slough. And I read the Water Management 
District consultant's report that Mr. MacVicar did the 
hydrological analysis that showed that acquisition of the area 
was not necessary, because natural flows would be restored 
equally to the Slough whether you bought the area for $120 
million or built the $39 million levee.
    But all of the facts, and I try to tell them to people, 
wouldn't break through the myth. So finally on November 12, 
1998, when I stood at that Water Management District meeting, 
and I had been privy to a process that I thought was totally 
unfair and unjust to these people, I resigned from Friends of 
the Everglades, the group that I loved, because I didn't want 
to taint them with the words that I was going to say; and that 
was that I felt that this area did not need to be bought out, 
and that if we bought it out, we were throwing the Everglades 
and the Park down the drain, because they weren't going to 
leave, and we were never going to restore the flow.
    I thought about my house and what it means to me. It is a 
home, it is not a house. And you know, I saw people saying they 
came from Cuba, they came from Cuba on rafts. They escaped. 
Their land was being confiscated by Castro, and now it was 
being taken from them in this country.
    I guess, lastly, I would just like to say that we really 
need your help. The Everglades restoration must be restored, 
not just for the Federal interest and the national park, but 
for the Federal trust responsibility, to the Indians lands, for 
the Federal threatened and endangered species that exist in 
this area. It is important to the water supply of the people of 
south Florida.
    And Congressman Fascell was a wise man. We will make no 
progress on the Modified Water Delivery Project that is his 
legacy if we continue to fight.
    I would just like to end with the words he said at a 
ground-breaking ceremony--and I stood on the stage with farmers 
and people from the community or Steve Shiver, who was once my 
friendly enemy--and what these words were, ``It seems like we 
have been discussing the same thing for about 50 years or maybe 
longer. But for a long time, we have had just one group 
fighting another group. And those of us who were caught in the 
middle trying to even out these various pressures found it 
almost impossible to make a lot of progress. There is only one 
way to get things done, and that is for everybody to work 
together. The government, the people, we are all the same 
people.''
    We don't need victims for Everglades restoration. We don't 
need to be treating human beings like poker chips, but we do 
need to

do this project. We owe it to Congressman Fascell to make 
progress on the wonderful law that is his legacy, for 
preservation of his legacy will mean progress on the only 
Everglades in the world.
    Thank you.
    Mr. Hansen. Thank you.
    [The prepared statement of Ms. Lorion follows:]
    [GRAPHIC] [TIFF OMITTED] T7272.032
    
    [GRAPHIC] [TIFF OMITTED] T7272.033
    
    [GRAPHIC] [TIFF OMITTED] T7272.034
    
    [GRAPHIC] [TIFF OMITTED] T7272.035
    
    [GRAPHIC] [TIFF OMITTED] T7272.036
    
    [GRAPHIC] [TIFF OMITTED] T7272.037
    
    [GRAPHIC] [TIFF OMITTED] T7272.038
    
    [GRAPHIC] [TIFF OMITTED] T7272.039
    
    [GRAPHIC] [TIFF OMITTED] T7272.040
    
    [GRAPHIC] [TIFF OMITTED] T7272.041
    
    [GRAPHIC] [TIFF OMITTED] T7272.042
    
    [GRAPHIC] [TIFF OMITTED] T7272.043
    
    Mr. Hansen. Mayor, good to have you with us.
    Let me ask you, did they rebuild Homestead Air Force Base 
after Andrew went through there?

   STATEMENT OF HON. STEVE SHIVER, MAYOR, CITY OF HOMESTEAD, 
                            FLORIDA

    Mr. Shiver. I am going to refer to that, and I will 
actually read the headline put on an article, ``Air Base Put on 
Fast Track for Renewal, Homestead to Get Priority Funding for 
Rebuilding and to be a Model Air Force Reuse Facility.''
    Unfortunately, that was printed on July 8 of 1993, and we 
still have no movement on the Air Force base, largely because 
of the Department of Interior's involvement. I thank you for 
asking that question. And, boy, I had that article ready, 
didn't I?
    Mr. Hansen. You were ready for me on that one.
    Mr. Shiver. Thank you very much, Chairman Hansen, and the 
rest of the Committee for allowing me to share with you some 
thoughts. I was asked to submit a supplemental analysis of my 
comments; and simply one line was the frustration that this 
community is feeling. That recaps my entire written document 
that has been submitted to you for the record.
    Have you ever seen a snowball start at the top of the hill? 
Well, as Mr. Duncan pointed out, the only difference that we 
have now is that this DOI-driven cost and expense, there is no 
bottom to that hill. That snowball is going to continue. That 
snowball is going to get bigger and bigger and bigger until 
somebody stands up and demands accountability.
    My community was devastated by Hurricane Andrew in 1992. I 
hate to even speak of that because that was such a traumatic 
time for all of our community. But, realistically, we have 
rebuilt, we have come back physically; and mentally is still 
challenging sometimes. You get the scares of hurricanes, and 
everybody runs for the boards and the bottled water. But we 
still had been able to come back.
    But the closure of the Air Force base, the issues with 
Water Management that continue to be--to go on, that we will 
never come back from, unless there is some accountability from 
this Committee demanded by--or demanded by this Committee to 
the Department of Interior.
    I think the issue of accountability really stems from 
several things. But I want to point out a fact that has been 
mentioned a couple of times, and that is the Frog Pond. The 
Frog Pond was something that had to be--it was essential to be 
acquired. For the agricultural areas and the uses in the Frog 
Pond, it was just killing Florida Bay.
    The Department of Interior lobbied very strong with the 
Water Management--Water Management board to basically move 
forward in acquiring that property. Their cost estimates at 
that time were $11.5 million. Come to find out, once all was 
said and done, $43 million later, that condemnation, there has 
now been research published that agriculture really was not the 
demise of Florida Bay; and that property has now been leased 
back to farmers. I guess that is just another issue or another 
point of best management practices.
    You mentioned the Air Force base, the fast track there. We 
have had many politicians, we have had many representatives 
from various government agencies come into our community and 
say they are going to do everything they can to make sure that 
the economic stability of our community is dealt with, from 
putting the Air Force base back on-line, from ensuring that our 
subsurface flooding issues that has been basically killing our 
agriculture, as testified to by Tom MacVicar, the 
representative from Farm Bureau; and still nothing has been 
done.
    We talk about willing sellers in the 8-1/2 Square Mile 
Area, willing sellers. After the Department of Interior and 
Water Management for 10 years have been asking, on again off 
again, whether or not they are going to condemn the property, I 
would probably be a willing seller, too, just to get out.
    I think Dexter Lehtinen hit it on the head when he said 
there are strong evidences of coercion there. How would you 
like your home to be subject to condemnation discussions for 
over 10, 15 years? That roller coaster, that emotional roller 
coaster I think you would be on would be just devastating.
    Joette mentioned our love-hate relationship in years past. 
Well, it was the vice president of that very organization that 
Joette represented that told me at that same ground-breaking, 
we are going to get your land whether you like it or not. That 
is a vice president of Friends of the Everglades, a 
representative, be it formal or not, of the Department of 
Interior and their movement to basically seize all land area in 
south Dade.
    I have asked on many occasions at the end of the day, Mr. 
Department of Interior, what do you see south Florida being? 
Give us your agenda. Give us your results. There are none. 
There are vague answers, as you were asking many pointed 
questions. And I thank you all for having the ear or giving us 
the opportunity to voice, because I don't think we have been 
listened to.
    We talk a lot about science, we talk a lot about birds and 
bees, but what about the economic viability of the community 
that can actually throw a stone at the Everglades National Park 
and Biscayne National Park? Thank you for giving us that 
opportunity to voice those concerns.
    I want to close with a couple things, just again in a 
department run rampant. A $5 million pump has been built west 
of Homestead, the city of Homestead. That pump was said to be 
essential in replumbing the Everglades. That was done recently, 
and they don't have a permit to turn on the pump. The 
Department of Interior and Water Management and the State of 
Florida have not come to an agreement. It was built on time for 
extra money, actually ahead of schedule. They can't even turn 
it on.
    It is a department run rampant. It is an environmental 
community in some instances, the extremists, that are holding 
us hostage, and that is the people that actually live, work and 
play.
    One more point, and I will close. Recently, there has been 
serious discussion with the Collier Foundation for swapping our 
Homestead Air Force Base for drilling rights that they still 
maintain in the Big Cypress.
    Now, Bill Leary will tell you that his immediate reaction 
was to send the Collier family and the Collier interests to 
Homestead to talk to the local concerns. Well, I met with them 
the day--yesterday, actually, and that was one of the first 
meetings and discussions that we have had concerning that 
entire issue.
    Once again, the Department of Interior is cutting deals on 
the backs of Homestead and South Miami-Dade County without any 
consultation or input from the people who live, work and play 
there.
    Please demand accountability. Thank you for the opportunity 
to address you, and I will be happy to answer any questions.
    Mr. Hansen. Thank you, Mayor.
    [The prepared statement of Mr. Shiver follows:]

   Statement of Hon. Steve Shiver, Mayor, City of Homestead, Florida

    Ladies and Gentlemen:
    I want to thank you for the opportunity to speak to you 
today about several issues that have really changed the lives 
of many people in the community of South Miami-Dade County. I 
hope the information and testimony provided will give you 
insight and some understanding of not only the difficult 
economic challenges we have faced over the past few years, but 
the seemingly increasing regulations, constraints and intrusive 
environmental bureaucracy that continues to plague our 
community.
    South Miami-Dade County, more specifically the Cities of 
Homestead and Florida City, have historically depended upon two 
economic bases. The first being farming with the vast majority 
of our work force depending on our greatest resource, land. 
Secondly, the former Homestead Air Force Base, opened in the 
late 40's, was a significant employer of many in our community.
    As you know, in August of 1992 Hurricane Andrew struck 
South Florida leaving South Miami-Dade County facing the most 
difficult task of rebuilding every aspect of our region. Little 
did we know that the devastation of Hurricane Andrew was just 
the beginning of our long and arduous journey on that dreadful 
night we were not only destroyed physically and mentally from 
the affects of the hurricane, it also brought about the closure 
of the Homestead Air Force Base which has proven to be far more 
devastating than any natural disaster.
    Immediately following Hurricane Andrew, there were many 
that came in to town promising the rapid recovery of our 
economy. In fact I have attached an article from our local 
paper dated July of 1993 that really lays the groundwork for 
our frustration. The headlines read ``Air base put on fast 
track for renewal.'' In this article you'll see comments by 
then Deputy Secretary of Defense, William Perry. Mr. Perry 
indicated that the reuse of Homestead Air Force Base would set 
the standard for military transfers in the Country. He goes on 
to say that the idea is for other communities facing military 
facility closures to be able to look to us (Homestead) for 
ideas and inspiration. Well ladies and gentlemen, unfortunately 
the only inspiration that came out of the Homestead Air Force 
Base closure was to those who saw it as an opportunity to 
discontinue all air related uses of what had been a heavy 
traffic airport for almost 50 years.
    You may ask what this has to do with the issue at hand or 
the Department of Interior. Well it's my opinion that the 
majority of the propaganda circulated in the environmental 
community about this issue is from organizations and 
individuals with close ties to the Department of Interior. In 
fact, this has been a pattern for many years.
    I'm relatively new to this process being elected to office 
in 1993. At that time, the multitude of environmental issues 
ranging from the reuse of the former Homestead Air Force Base 
to subsurface flooding of our farmland were becoming 
increasingly hot topics. However, a bit naive and eager to 
``get the job done'' I thought I could bargain and reason in 
good faith. I thought we could reach a solution or compromise 
that would allow for the sustainability of not only our 
precious environment and natural resources but also our fragile 
economy and the people who call South Miami-Dade County home.
    Throughout my ``awakening'' I was told by many who has been 
down that road before, not to trust ``them,'' (the Department 
of the Interior and environmental groupies) not to let my guard 
down. After all, this was the same Department of Interior and 
Everglades Administration that in 1995 convinced the State of 
Florida that the 5,200 agricultural acres referred to as the 
frog pond was absolutely critical for the Everglades to 
survive. Agricultural uses had to be eliminated immediately to 
save Florida Bay. This was also the same DOI that said the cost 
of acquisition of the 5,200 acres was only going to be $11.5 
million and they assured the taxpayers of Florida that they 
would be there with their share. Well in 1995, the property was 
condemned and the actual cost turned out to be $43 million. To 
sum it up, South Miami-Dade lost thousands of agricultural jobs 
and the Park Service has since published research showing that 
the Florida Bay problem was not related to agriculture. 
Meanwhile, the State of Florida has leased most of the 5,200 
acre frog pond to ``different'' farmers to grow lower value 
crops. Chalk one up for ``Best Management Practices.''
    Nonetheless, I was able to convince many to come together 
for meaningful discussion with various environmental groups, 
Department of Interior representatives, farmers, bankers, land 
owners and the like. We worked diligently with sometimes quite 
heated debate addressing land use issues surrounding the former 
Homestead Air Force Base. I guess my true ``awakening'' 
happened when I learned that environmental representatives 
within this group were actually the driving force behind the 
lack of activity relating to the reuse of the former Homestead 
Air Force Base. No compromise short of nothing at all was good 
enough. I was really shocked when a Vice President of the 
Friends of the Everglades, an organization with close ties to 
the Department of the Interior, informed me that they would 
``get all of our land if we like it or not.''
    As a life long resident of the City of Homestead growing up 
with the Everglades and Biscayne National Park as our neighbor, 
the last thing we as a community want to do is contribute to 
their demise. However, we must also listen to the stakeholders 
of the community. We must listen to those who actually have 
their lives invested in this community. Those who want to work, 
live, play and raise their families here. As a taxpayer, we 
must also listen to reason. There must be sound science in 
place before major projects are undertaken. The taxpayer of 
America can not afford another frog pond.
    I know there are many that will testify to the merits of 
the science. They will argue that we have studied this issue 
for many years and have reached conclusions that have not been 
implemented. Perhaps it's because the results of these 
conclusions are not acceptable to the Department of the 
Interior. Well, in South Miami-Dade there are a lot more 
interests than just the Department of Interior and we plead 
with you to help us get that point across.
    At issue today is the 5,800 acres in South Miami-Dade 
County referred to as the 8.5 square mile area (8.5 sma). Once 
again, the Department of the Interior has determined that the 
acquisition of this land and many homes is essential to the 
survival of the Everglades. However, there have been three 
Governors in the State of Florida who have appointed various 
study commissions dealing with land acquisition and water 
issues in the East Everglades. Each commission has determined 
that acquisition of the 8.5 square mile area is not essential. 
In fact, some studies show that returning the water to the Park 
from the 8.5 square mile area has more of an environmental 
benefit.
    But just for a moment, let's set aside the science and 
consider the people. There are numerous families that have 
invested their life savings in homes and property in this area. 
Imagine your home for a moment. Then imagine a governmental 
agency that for over 10 years has said they need your land for 
conservation and water issues and the next year they don't. 
I've often said we are the most affected and least influential 
in the decisions that are being made for us. Imagine for a 
moment the emotional roller coaster you would be on if your 
community, your home, for over ten years was the on again, off 
again focus of condemnation.
    Consider what that does to the value of property in that 
area. The value of homes that have been the focal point for 
investment for many who call this area home have been seriously 
affected by this cloud the Department of Interior has placed 
over the entire area. I hope their estimates of acquisition are 
better than their estimate of the frog pond.
    I am no scientist but we continue to talk about land 
acquisition in the East Everglades to create a buffer zone. Why 
not ask to create the buffer zone inside the land area already 
owned by Everglades National Park. It seems that would be far 
less expensive.
    In conclusion, I hope we can count on you to make the 
Department of Interior accountable. We, the people of South 
Miami-Dade County don't have the luxury of a band of attorneys, 
consultants, and paid environmental organizations embarking on 
national letter writing campaigns. The Department of the 
Interior should be required to have sound and independently 
confirmed science in hand before they continue their siege on 
our community.

    Mr. Hansen. We now turn to Ibel Aguilera. Did I come close?

   STATEMENT OF IBEL AGUILERA, THE UNITED PROPERTY OWNERS & 
           FRIENDS OF THE 8.5 SQUARE MILE AREA, INC.

    Ms. Aguilera. Ibel Aguilera. That was close enough.
    Mr. Hansen. You have got the floor anyway.
    Ms. Aguilera. Mr. Chairman, I am honored just to be here 
today. I am here on behalf of the United Property Owners & 
Friends of the 8-1/2 Square Mile Area. This is an association 
that was formed right after the November 12th decision of 
acquiring our land. Our association represents the unwilling 
sellers.
    There has been a lot said about who is willing and who is 
not a willing seller in our area. Unfortunately, I forget my 
glasses in the hotel room so--thank you.
    I would like to state for the record that last--as recent 
as last month, I sent out a general mailing to all the property 
owners in the area, not just the residences, but all the 
property owners. I have just had returned over 100 forms, and 
all of them are unwilling sellers. I would like to request the 
opportunity later on, in the future, to submit all these forms, 
plus the rest that are still out there pending, to this 
Committee.
    Mr. Hansen. Without objection, we will put it all in the 
record if that is all right.
    Ms. Aguilera. So you can judge for yourself the 
unwillingness of the sellers up there.
    I would like to tell this Committee, this is not a 
restoration issue; this is a human rights issue. As you are 
aware by the testimonies that were given here before, the 
majority of the property owners in the 8-1/2 Square Mile Area 
are Cubans. These people came to this country in the search for 
freedom, in search of rights. In the 8-1/2 Square Mile Area, 
they bought their land. They built their homes. It is been 20, 
30 years for some; at this point in time, they are 60, 70 some 
years old. They don't feel, neither do I feel it is fair for 
this government to come in and unnecessarily condemn their 
homes or destroy their way of life for the last 20 or 30 years.
    We have been coerced by the district to the point where we 
have--we even called the cops and filed a report against one of 
the district members, a copy of which I attached to my 
testimony. I have testimony from people that have sold, that, 
in their words, they can tell you, they feel they have been 
raped by their own government, by their own elected officials. 
These are not even Cubans that are living in that area. These 
are American families that were forced to sell because they 
called the district. And Mr. Sam Poole himself told them, if 
you don't sell now, later on we are going to condemn you. Her 
statement is in my testimony.
    I was hoping this would not happen, but there is a lot of 
emotions and tensions that have been building up since November 
and even prior to that she is crying.
    I ask of this board, consider this issue as we feel it was 
not the intention of the United States Congress back in 1989 
when the Expansion Act was enacted to sacrifice the people of 
the 8-1/2 Square Mile Area. I feel their orders were clear to 
protect the 8-1/2 Square Mile Area.
    The 8-1/2 Square Mile Area is a very productive area in 
Dade County. There is a lot of farming. There is a lot of 
ranch. We feel we have the American dream in the 8-1/2 Square 
Mile Area. However, this dream has become a nightmare since 
November 12, 1998.
    Right after this decision, the district was acquiring land 
in our area. And all this land have been leased to other 
individuals for farming purposes. Why can't we stay on our land 
and farm our land? Because in the name of restoration, they are 
trying to take it away from us and give it to somebody else to 
farm it? I don't think it is fair. I am sorry.
    Mr. Hansen. Maybe the Committee will ask questions, and we 
will go back to our witness. Will that be all right?
    Mr. Gibbons.
    Mr. Gibbons. I pass on the questions and will yield back my 
time at this point.
    Mr. Hansen. Mr. Duncan.
    Mr. Duncan. Mr. Chairman, all I would like to do is--I 
don't have a question. But what I would say is this:
    This is so sad because the witnesses may not realize this, 
but this is happening all over this country. The Federal 
Government today owns a little over 30 percent of the land in 
this country, and State and local governments and quasi-
governmental units own about another 20 percent, so that you 
have got roughly half the land in this country under some type 
of public ownership.
    And what is disturbing, though, is that over the last 25 or 
30 years, this percentage of the land that has been taken for 
public--by public governmental units has been growing by leaps 
and bounds. And these governmental units, particularly the 
Federal Government, but they always can rationalize or justify 
taking this land.
    And what we are doing, we are very slowly destroying 
private property in this country. And if we don't wake up 
someday and realize that private property has been one of the 
real cornerstones of our prosperity, it has been something that 
set us apart from the former Soviet Union and places like that, 
and what is happening to these people, I mean, we are talking 
about an area that is 18,000 square miles, and today we are 
talking about this little time 8-1/2 square mile piece of 
property. But as Ms. Aguilera is showing, this really means a 
lot to these people.
    Ms. Aguilera. It does. It does, sir.
    Mr. Duncan. And even the environmental movement should 
realize that the worst polluters in the world were the 
Socialist and Communist governments. People take better care of 
their own private property than is taken of property that is in 
public ownership.
    I haven't been to this area, but I bet these people take 
good care of their property. It is so sad to think that a lot 
of these people, or most of them, are people who came from Cuba 
where land was confiscated and taken away from them by a 
Communist dictator, and now they come to the United States, a 
country that is supposed to be a free country, yet these people 
are coming all the way from south Florida to Washington, DC, to 
try to defend their little piece of the American dream.
    The unbelievable thing is, this is happening all over this 
country. These liberal, left-wing, Socialist, big-government 
types think they can run everybody's life better than they can 
themselves. So they don't mind coming in and doing a really 
cruel thing and taking away this property. And I just think 
that we need to speak out against it and that it needs to stop, 
or at least hopefully we can slow it down a little bit.
    Thank you.
    Mr. Hansen. Thank you.
    The gentleman from Pennsylvania? Mr. Sherwood, any comments 
you would like to make at this time?
    Mr. Sherwood. Thank you. I have great empathy for the folks 
that are having the problems there, but I think it has pretty 
well been done. I have nothing else to say about it.
    Mr. Hansen. Okay.
    Ibel, do you want to give it another shot? We realize 
things like that get very close to the heart, no question about 
it.
    Ms. Aguilera. Especially with me. I know most of these 
people personally, sir. I can tell you, my next-door neighbor, 
76 years old, a retired World War II veteran, an ex-fire chief 
for the City of Tampa. His wife died 10 years ago. She was very 
close to me. Her dying wish was to have her ashes spread in her 
backyard, and this he did. Recently he told me he wants the 
same thing done with him the day he dies. He has no immediate 
family in south Florida, so my husband and I, we are the 
closest he ever has in the neighborhood.
    Anyways, this gentleman lost his home to Andrew. He got 
involved with a contractor that took part of his money. And 
when he went back to the county to pull his permits, he was not 
allowed to. They told him he had a certain amount of time 
within to pull his permits and so forth. Anyways, he has spent 
thousands of dollars in attorneys' fees, and finally he has got 
his rebuilding permits back.
    He is right now in the middle of his construction. Dade 
County keeps coming every month inspecting all the construction 
that is going on in his home. Nobody else told him to this date 
that he is going to have to give up his dream.
    He is rebuilding his house, the 76-year-old. How are you 
going to tell this old man now that because, in the name of 
Everglades restoration when everybody knows it is not true, 
they are going to condemn his property, whatever he has got 
built in there right now? You might as well shoot him now. It 
is going to kill him anyways.
    And like him, there is many elderly people that have lived 
and have made the 8-1/2 Square Mile Area the place away from 
their native land. How can we tell these people who have 
already suffered the taking away of their homes once before in 
their life that this is going to happen to them again?
    Now they no longer can start building a new home anywhere 
else. Where are they going to go where they can have their 
horses, their cattles, their chickens, the animals they have in 
their farm these days? No where in this county.
    So I ask this Committee to please help us, to help us save 
our 8-1/2 Square Mile Area, to help us keep our dream alive. We 
chose this 20, 30 years ago. We were allowed to do so legally, 
as we were permitted to build in this area. We have suffered 
the devastation of Hurricane Andrew, and we were allowed to 
rebuild.
    Now, 7 years later, we have replanted our trees, rebuilt 
our homes. More or less our lives are back to normal. Why in 
God's name do they want our properties now? They know it is not 
necessary for restoration. There is clear scientific proof that 
it is not necessary for restoration.
    So we ask this Committee to please intervene and help us 
save our community. Thank you.
    Mr. Hansen. And we thank you, Ibel. That was very good 
testimony.
    [The prepared statement of Ms. Aguilera follows:]
    [GRAPHIC] [TIFF OMITTED] T7272.044
    
    [GRAPHIC] [TIFF OMITTED] T7272.045
    
    [GRAPHIC] [TIFF OMITTED] T7272.046
    
    [GRAPHIC] [TIFF OMITTED] T7272.047
    
    [GRAPHIC] [TIFF OMITTED] T7272.048
    
    [GRAPHIC] [TIFF OMITTED] T7272.049
    
    [GRAPHIC] [TIFF OMITTED] T7272.050
    
    [GRAPHIC] [TIFF OMITTED] T7272.051
    
    [GRAPHIC] [TIFF OMITTED] T7272.052
    
    [GRAPHIC] [TIFF OMITTED] T7272.053
    
    [GRAPHIC] [TIFF OMITTED] T7272.054
    
    [GRAPHIC] [TIFF OMITTED] T7272.055
    
    [GRAPHIC] [TIFF OMITTED] T7272.056
    
    [GRAPHIC] [TIFF OMITTED] T7272.057
    
    Mr. Hansen. And let me ask my colleagues if they have any 
further questions for this panel. The one in the chair has to 
watch the clock, and the rest of the folks don't have to as 
much, but we are almost out of time for this room.
    So if you have anything burning in your bosom you want to 
add, I will give you another minute each or my colleagues from 
Tennessee and Pennsylvania if they have any further comment.
    If not, excellent testimony. But I want to say to you the 
same as I did the last panel, we have some questions for you 
that we would like some written answers to the best of your 
ability if you would. Would that be all right?
    Ms. Aguilera. Absolutely.
    Ms. Lorion. Yes.
    Mr. Shiver. Yes.
    [The information may be found at the end of the hearing.]
    Mr. Hansen. Thank you so much for your testimony.
    You know, as the gentleman from Tennessee pointed out, 
sometimes we see movements come along, and they become a little 
extreme; and all over America now we are seeing people get into 
this issue of private property, what can you take and what 
can't you take. And as a past city councilman, State 
legislator, and other things, sure, Mayor, I know what it is 
like. I sat in a position like yours for a few years. Sure, we 
have to condemn some area for a right-of-way occasionally or a 
waterline or whatever it may be.
    But when you want to get to very sacred stuff, start 
talking to people's property and what they have. I think our 
Founding Fathers wisely put that in the Constitution, which I 
think, to a certain extent, has been kind of trampled upon over 
the years and something we should be very careful of.
    The gentleman from Tennessee pointed out 30 percent of the 
country is owned by the Federal Government until you get to 
where I live, and those figures go up. My State is 73 percent. 
I think Mr. Gibbon's State is 90 percent. Mrs. Cubin's State is 
80-something percent. So we are very, very sensitive to the 
Federal Government coming in and stomping on our rights.
    However, there is moderation. I don't know who said 
moderation in all things, but whoever did, it should be 
scriptural, because really there is some point we can reach, 
some moderation in things, without some extreme application 
taking away our rights.
    You look at our people out West, when somebody finds a 
slimy slug on their property, we give up 100,000 acres 
sometimes for it. And we say, why is this so important to us. 
So you are always fighting these kind of arguments.
    So we take what was stated today very seriously. And I can 
tell you, this Committee on both sides of the political aisle 
feel very strong about private property rights, and we will 
look into this in detail. And this is just the start of what we 
will be doing on this issue.
    With that said, this hearing is adjourned.
    [Whereupon, at 12:35 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
    [GRAPHIC] [TIFF OMITTED] T7272.058
    
    [GRAPHIC] [TIFF OMITTED] T7272.059
    
    [GRAPHIC] [TIFF OMITTED] T7272.060
    
    [GRAPHIC] [TIFF OMITTED] T7272.061
    
    [GRAPHIC] [TIFF OMITTED] T7272.062
    
    [GRAPHIC] [TIFF OMITTED] T7272.063
    
    [GRAPHIC] [TIFF OMITTED] T7272.064
    
    [GRAPHIC] [TIFF OMITTED] T7272.065
    
    [GRAPHIC] [TIFF OMITTED] T7272.066
    
    [GRAPHIC] [TIFF OMITTED] T7272.067
    
    [GRAPHIC] [TIFF OMITTED] T7272.068
    
    [GRAPHIC] [TIFF OMITTED] T7272.069
    
    [GRAPHIC] [TIFF OMITTED] T7272.070
    
    [GRAPHIC] [TIFF OMITTED] T7272.071
    
    [GRAPHIC] [TIFF OMITTED] T7272.072
    
    [GRAPHIC] [TIFF OMITTED] T7272.073
    
    [GRAPHIC] [TIFF OMITTED] T7272.074
    
    [GRAPHIC] [TIFF OMITTED] T7272.075
    
    [GRAPHIC] [TIFF OMITTED] T7272.076
    
    [GRAPHIC] [TIFF OMITTED] T7272.077
    
    [GRAPHIC] [TIFF OMITTED] T7272.078
    
    [GRAPHIC] [TIFF OMITTED] T7272.079
    
    [GRAPHIC] [TIFF OMITTED] T7272.080
    
    [GRAPHIC] [TIFF OMITTED] T7272.081
    

</pre></body></html>
